<html>
<title> - NOMINATION OF DONALD L. EVANS, TO BE SECRETARY OF THE DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 107-1023]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 107-1023
 
                  NOMINATION OF DONALD L. EVANS, TO BE

                      SECRETARY OF THE DEPARTMENT

                              OF COMMERCE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             WASHINGTON, DC

                               __________

                            JANUARY 4, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


                      U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2004
86-288 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001




           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

              ERNEST F. HOLLINGS, South Carolina, Chairman

DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska
    Virginia                         CONRAD BURNS, Montana
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
JOHN B. BREAUX, Louisiana            KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    BILL FRIST, Tennessee
MAX CLELAND, Georgia                 SAM BROWNBACK, Kansas

               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel


                            C O N T E N T S

                              ----------                              

                                                                   Page
Hearing held on January 4, 2001..................................     1
Statement of Senator Brownback...................................    40
    Prepared statement...........................................    40
Statement of Senator Burns.......................................     9
    Prepared statement...........................................    10
Statement of Senator Cleland.....................................    13
    Prepared statement...........................................    14
Statement of Senator Dorgan......................................    12
Statement of Senator Hollings....................................     1
    Prepared statement...........................................     2
Statement of Senator Inouye......................................    17
    Prepared statement...........................................    17
Statement of Senator Kerry.......................................     7
Statement of Senator McCain......................................     5
    Prepared statement...........................................     7
Statement of Senator Rockefeller.................................    11
Statement of Senator Snowe.......................................    15
Statement of Senator Stevens.....................................     7

                               WITNESSES

Gramm, Hon. Phil, U.S Senator from Texas.........................    17
Hutchison, Hon. Kay Bailey, U.S. Senator from Texas..............    18
    Prepared statement...........................................    19
Wyden, Hon. Ron, U.S. Senator from Oregon........................    38
Evans, Donald L., nominee to be Secretary of the Department of 
  Commerce.......................................................    20
    Prepared statement...........................................    22

                                Appendix

Frist, Hon. Bill, prepared statement.............................    44
Biographical and Financial Information Submitted by Nominee to:
    Donald L.Evans...............................................    57
Response to written questions submitted by Hon. John McCain to:
    Donald L. Evans..............................................    44
Response to written questions submitted by Hon. Max Cleland to:
    Donald L. Evans..............................................    53


                  NOMINATION OF DONALD L. EVANS, TO BE

                SECRETARY OF THE DEPARTMENT OF COMMERCE

                              ----------                              


                       THURSDAY, JANUARY 4, 2001

                               U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC. 
    The Committee met, pursuant to notice, at 10 a.m. in room 
SR-253, Russell Senate Office Building, Hon. Ernest F. 
Hollings, Chairman of the Committee, presiding.

         OPENING STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. The hearing will come to order. Let me 
first thank our regular Chairman, Senator McCain, for his 
leadership, in showing that a 50/50 divided Senate can work 
together as a unit.
    We have always operated in a bipartisan fashion. And our 
regular Chairman has been outgoing in wanting to move things 
along and get things done. And that is the whole idea here 
today. It is not to get into partisan struggle to see who is on 
top and who can get the most publicity.
    But welcome to you very much, Mr. Evans. I understand your 
wife Susan is with us this morning. Would she please stand? We 
want to recognize her and welcome her, too.
    First, we do not have the Office of Government Ethics 
report from the financial statement you submitted. We do not 
have the FBI report either. And it could be that some of the 
predictive Members on both sides who have yet to be announced 
next week would want to be able to meet with you, Mr. Evans, 
and ask some questions, particularly about the census. And we 
will find then if Chairman McCain at that time in the week of 
January 22 wants to hold a further hearing before we move to 
confirmation in this Committee. But Chairman McCain will make 
that decision, and we will be glad to support him.
    Otherwise, let me say this. I have a five minute 
opportunity for an opening statement. I want to set an example. 
I will put my prepared statement in the record without 
objection.
    Before yielding to Chairman McCain as mentioned, I have cut 
my opening statement down to respect our time limits and 
because I have had the opportunity to meet with Mr. Evans to go 
over the matter of manufacturing. We are losing our industrial 
backbone. We have lost 100,000 manufacturing jobs just in this 
past year.
    I have expressed my interest in the oceans. We have talked 
about technology. And there is one other thing that we did not 
get to touch upon that I ought to cover here in an opening 
statement. And that is the trade opportunities that we have if 
we could only enforce our trade laws.
    Specifically, we welcome our Texas Senators to make the 
introduction.
    Texas, and the entire nation, has an opportunity now with 
NAFTA. We have got NAFTA. I opposed it. I am confident it has 
not worked. But our job or opportunity is to make it work, 
Senator Gramm. We have lost jobs. I have lost 40,100 textile 
jobs alone since NAFTA in my little State of South Carolina.
    But be that as it may, we have got a wonderful happening 
down there in Vincente Fox's election. And rather than to pass 
through money and the Wall Street bankers operating the policy 
toward Mexico, we can develop, as President Fox has indicated, 
a common market. And Secretary Evans can take the leadership on 
that.
    The Europeans long since have found that the free market 
approach did not work. They taxed themselves some $5 billion 
before they allowed Greece and Portugal to come into the Common 
Market.
    I noticed from the statements made by President Fox and his 
appointment of Jorge. Casteneda that they intend to rebuild the 
infrastructure. Before you can really have free trade, you've 
got to have a common market. You've got to have the entities. 
You've got to have not only free elections, but labor rights, 
property rights, a respected judiciary. And they will need 
financial help.
    From this Committee's standpoint, I think we could support 
that very, very strongly. Rather than sending money down to go 
back to Wall Street, which has been the case over the many 
years, we want to help build that infrastructure and really 
solve that immigration, solve that drug problem, and bring up 
their economy so that it is relatively competitive with ours.
    Secretary Evans, you can take the lead in that. You have 
got an individual interest in it, I am confident. So I want to 
make sure that we not only enforce our trade laws, but we make 
sure that they work. That one in NAFTA is not working now. It 
is just an outpouring of manufacturing jobs down there because 
we as politicians at this particular level say ``Before we open 
up Evans manufacturing, you have got to have clean air, clean 
water, Social Security, Medicare, Medicaid, plant closing, 
parental leave, safe working place, safe machinery.'' All of 
that goes into the cost of production, and they do not even 
have a good minimum wage down there.
    So let me yield to my distinguished Chairman here, Senator 
McCain.
    [The prepared statement of Senator Hollings follows:]
            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    We will convene the hearing on the nomination of Donald L. Evans to 
be the Secretary of Commerce. First let me thank Mr. Evans for being 
here today and the panel that will assemble shortly to introduce him. 
Before we get started, I also want to acknowledge Mr. Evan's wife, 
Susan who is in the audience.
    I also want to thank Senator McCain for scheduling this hearing 
today. He has demonstrated that a Senate divided equally between the 
parties can work. The Commerce Committee has always operated in a 
bipartisan fashion and Senator McCain has continued that tradition. The 
incoming administration can learn from our experience here on the 
Committee. The Republican Caucus and you Mr. Evans, as the Secretary of 
Commerce, will need to work with Democrats to reach consensus on a 
myriad of issues in order to be successful. This is the inescapable 
truth we face. It is in our mutual interest to face it together. And as 
we work together in this historical time where our political parties 
are at virtual parity, there are several issues that are vitally 
important to me that I want to discuss with you today. They include--
trade, NOAA, the Department's role in the promotion of technology and 
the manner in which the census is conducted.

I. Trade

    As you know, Secretary-designate Evans, I have often expressed 
concern about creating and keeping manufacturing jobs in the United 
States. In the last year alone, we have lost over 100,000 manufacturing 
jobs.
    For example, in my home state of South Carolina, we have lost 
36,500 net manufacturing jobs since the implementation of NAFTA. Those 
are jobs that pay better than many that we are now creating in the 
service sector. They are jobs that held together families and 
communities. They are jobs that did not require that people spend 4-
plus years in college.
    How do we support these workers? By supporting and enforcing our 
existing unfair trade laws. You are familiar with these laws because of 
your experience in the energy industry. These laws are vitally 
important because they protect U.S.-based manufacturing and the workers 
in this industry. Their vigorous enforcement is a most important weapon 
already at our disposal in protecting our manufacturing base. Moreover, 
as this administration moves forward in its dealings with our foreign 
trading partners, keep in mind the importance of these manufacturing 
jobs and the people who work in these industries.
    Second, I look forward to working with you on several important 
legislative proposals. In the coming days, I will introduce legislation 
that will consolidate all international trade functions in the 
Department of Commerce. The current situation, which has trade 
functions spread across various departments and agencies, has become 
unworkable. Therefore, I will propose legislation to move the office of 
the U.S. Trade Representative into the Commerce Department and to 
abolish the ITC and transfer its functions to the Commerce Department 
as well. Such consolidation will assist in developing a comprehensive 
trade policy and in enforcing the U.S. unfair trade statutes and our 
trading partners' international commitments.
    I also look forward to working with you as we begin the process of 
interacting with Vincente Fox, the new President of Mexico. As you 
know, I opposed NAFTA and continue to believe that in its current 
structure, it costs the United States more jobs that it creates. 
However, with the changes in administrations in both the U.S. and 
Mexico, the opportunity exists to create a true trading relationship in 
a Common Market type arrangement, something that President Fox has, in 
principle endorsed. I proposed just such an arrangement in 1993 during 
the NAFTA debate and I look forward to reviving that proposal during 
the coming year.

II. NOAA

    Improving the science and management of our oceans and atmosphere 
is at the heart of what the Department of Commerce does, and it has a 
lot of work to do in the coming years. The National Oceanic and 
Atmospheric Administration (NOAA) 2001 budget tops $2.6 billion--more 
than half of the Commerce Department's total budget. This year's budget 
increase reflects the profound need to improve our understanding of the 
marine environment so decisions are based on scientific analysis and 
not merely the push and pull of interest groups, particularly in the 
areas of coastal protection, fisheries management and basic ocean 
research. The NOAA Corps and fleet are critically important to 
performing this function.
    We also need a comprehensive review of our nation's ocean policy 
similar to that conducted by the 1969 Commission on Marine Science, 
Engineering, and Resources (called the ``Stratton Commission'' after 
its chair, Dr. Julius T. Stratton). The recommendations of this first 
commission led to the very creation of NOAA and most of the laws the 
agency implements. Last year, after 30 years and a long 4-year struggle 
here in Congress, we finally enacted legislation to give us a new Ocean 
Policy Commission.
    Enactment of the Oceans Act of 2000 sets into motion a process that 
will have a profound influence on the way our oceans are managed for 
decades to come. The statute charges the new commission with studying 
and reevaluating the nation's laws and policies regarding the oceans 
and coasts, including legal, budgetary, organizational, and 
technological changes needed to tackle these increasingly complex 
problems--from ``dead zones'' to hurricane planning. Unfortunately, 
getting our oceans ``house'' in order at this point can't prevent some 
disasters.
    Last year's high profile conflict over protection of Steller's sea 
lions in Alaska is a perfect example of our need to reevaluate our 
ocean law and policy. For over a decade, while fishing pressure has 
increased as a result of rapidly improving technology, our information 
on species such as the Steller's sea lion and the Bering Sea ecosystem 
has been stagnant--despite the existence of new tools to close the gap. 
The underlying legal conflicts and profoundly imbalanced investment of 
time and money long ago, set the Magnuson-Stevens Act and the 
Endangered Species Act on a collision course. In 2000, the scene was a 
Federal court in Seattle, but it is hitting Hawaii now, and is headed 
for every other coastal state, including my home State of South 
Carolina. We are doing our best to work these problems out right now, 
but we all know that prevention is worth an ounce of cure!
    One thing is completely clear--if there was a need for the Stratton 
Commission in 1969, there is an even greater need for a new commission 
now. Just as before, we will need to appoint commissioners of national 
prestigious stature, who have the vision, integrity, and creativity to 
work toward new solutions, and the ability to make the public and 
Congress understand, and embrace, the need for such solutions. Thus, we 
will need to consider individuals with broad expertise in problem-
solving as well as those well versed in ocean, atmospheric, and coastal 
issues. Ocean issues today are technically and biologically more 
complex than ever and require thoughtful, experienced, and innovative 
members who can work together to think ``outside the box.'' We have got 
to get ahead of the curve again, and I look to both the new 
administration and Congress to move the nation's ocean policy into the 
new millennium. We have the tools, the brains, and the money to do it 
right, but we will need the right people, and I look forward to working 
with you closely to ensure it happens.

III. Technology

    The National Institute of Standards and Technology (NIST) 
represents the core of the Department's technology administration. As 
NIST, formerly the Bureau of Standards, celebrates its 100th 
anniversary, its mission--to work with industry to develop and apply 
technology, measurements, and standards--is more relevant than ever.
    The NIST laboratories maintain fundamental weights and measures and 
provide technical services that allow industry and others to utilize 
these measurements. For example, the NIST laboratories help industry 
and government ensure accuracy, consistency, and quality in a range of 
commercial and industrial products or processes. In addition, the NIST 
labs provide technical support for American industry representatives 
participating in international negotiations on product standards. The 
Department of Commerce estimates that standards are an integral portion 
of about $150 billion in U.S. exports and serve as barriers to trade 
for an additional $20 billion to $40 billion of exports. The excellent 
work of the Measurements and Standards Laboratories can help U.S. 
industry prevent foreign standards from becoming non-tariff trade 
barriers used against U.S. products.
    NIST is also helping U.S. industry stay competitive for the future 
by funding the Advanced Technology Program (ATP) to develop the next 
generation of breakthrough technologies in advance of its foreign 
competitors. ATP encourages companies to undertake initial high-risk 
research that promises significant widespread economic benefits, 
although the program does not support product development.
    According to a forecast by the Battelle Memorial Institute, U.S. 
companies plan to slow the growth of spending on research and 
development in 2001. You and I both know that the first thing to go 
will be the fundamental long-term R&D projects and only those projects 
that will pay off in the next few quarters will survive. As industry 
continues to focus more of its R&D on near term product development, 
there will be fewer private sources of support for the type of 
fundamental, enabling technology R&D that ATP supports. At the same 
time, Federal R&D funding--as a percentage of overall R&D spending is 
declining. It has declined from 50 percent of total R&D funding in the 
1990s to approximately 26 percent today. What does this mean? Simply 
put, the advanced technology program is as necessary now as it was when 
it was created under the leadership of former President George H.W. 
Bush. The program's support from the Council on Competitiveness tells 
you that ATP is needed so our industries can stay competitive in the 
world market.
    The proof is out there. Companies--over one-half of which are small 
companies--are approaching the ATP to co-fund truly revolutionary 
research, ranging from tissue engineering to advanced learning 
technologies--new technical areas that are becoming increasingly 
important to the U.S. economy and the quality of life of its citizens. 
To date, ATP funded projects have enabled a 50-percent reduction in the 
size of some computer memory chips, improvements in auto manufacturing 
processes, and a faster, lower-cost DNA sequencing technology.
    Small manufacturers--those with fewer than 500 employees--employ 1 
in 10 American workers. Another NIST program, the Manufacturing 
Extension Partnership or MEP, supports a network of locally run centers 
which provide technical advice and consulting to the small 
manufacturing companies in all 50 states and Puerto Rico. Many of these 
firms lag behind foreign competitors in technology and operations, 
leading larger American firms to look increasingly for offshore 
suppliers. MEP-assisted companies surveyed report benefits of $8 for 
every $1 that the Federal Government has invested in the MEP centers. 
The Department of Commerce should continue to nurture MEP in the new 
administration.

IV. Census

    On the matter of the census, I am in strong support of statistical 
sampling. I hope that the incoming administration will not interfere 
with the authority and ability of the Census Bureau to make the final 
determinations on the use of sampling. Former census directors, 
including Republicans, support allowing the Census Bureau the freedom 
to decide the counting methods and procedures without interference from 
the administration or Commerce secretary.
    It has now been more than 50 years since the discovery of 
substantial inaccuracies in the census count, primarily based on severe 
undercounting of minority groups, especially blacks and Hispanics. For 
example in the 1990 census, it was discovered that 8.4 million 
minorities were undercounted. Not only are such results unfortunate, 
they are unacceptably tragic when proven methods exist to correct and 
prevent such disparities. Four decades of sound research proven testing 
have demonstrated that statistical sampling is the best and most 
feasible method for ensuring greater accuracy in the census. This has 
been affirmed by the diligent work of the Census Bureau, working in 
coordination with the National Academy of Sciences and statistical 
experts. Unfortunately some members on the other side of the aisle have 
attempted to obstruct the use of sampling. Notably, until 1995, the 
dispute on the issue rested on regional differences. Sampling was 
supported not only be my able colleague, Mr. McCain, but by Mr. Newt 
Gingrich himself. However, after the Republicans took over the House in 
1995, through the leadership of Mr. Gingrich, they became vigorous 
opponents of sampling--no doubt for political reasons. In fact, the 
dispute eventually led to a lawsuit against the Census Bureau by the 
House Republicans. The matter eventually was decided by the U.S. 
Supreme Court. In a 5-4 decision, the Court ruled that statistical 
sampling could not be used for state reapportionment, but could be used 
for all other purposes, including redistricting. Some interpret the 
decision as the majority asserting that sampling must be used for all 
purposes except for apportionment regardless. The fact is that the 
Court affirmed the use of sampling.
    This issue entails many important facets. First and foremost it is 
about justice and fairness. When groups and areas are undercounted, the 
strength of their vote and representation are severely diluted; they 
suffer economically based on decisions by banks and insurance companies 
on the use of demographic data; and they suffer from reduced access to 
government resources. This injustice ought not stand. This issue, 
however, also is about the integrity of our government. Americans have 
a right and obligation to be properly and accurately represented by 
their government. Only the most accurate accounting can ensure this 
principle is upheld.
    I hope the secretary-designee will adhere to this principle and not 
do anything to discourage or to disrupt the work of the Census Bureau 
on this vitally serious matter.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman. I want to thank 
you for your continued cooperation, including holding this 
confirmation hearing. This is the first hearing of the 
President's nominees for his cabinet. I think it is both 
significant and traditional on your part that you would agree 
to hold this hearing at this early time.
    I would also like to mention that I was thinking this 
morning this begins our fifth year of working together. Not a 
single piece of legislation has gone through this Committee on 
a party line basis. I appreciate that very much, and I look 
forward to the opportunity in the next 2 years of working 
together as we have in the past. Thank you again for convening 
this hearing.
    Welcome and congratulations to Mr. Evans and his family. In 
his acceptance remarks following the President's nomination, 
Mr. Evans laid out his vision and priorities for the Commerce 
Department. They include the promotion of free enterprise, 
first in America and then abroad, the free flow of capital, and 
free and open competition. We look forward to hearing about Mr. 
Evans' plans in more detail today.
    At the outset, I want to applaud what I take to be Mr. 
Evans' emphasis on free and fair trade. I am a firm believer in 
free and open competition across international borders. We live 
in a global economy. The rapid rise of the Internet is just one 
of the more recent factors that makes a global economy an 
undeniable reality.
    Erecting and enforcing trade barriers between and among 
individual countries is simply the wrong policy to pursue. Free 
trade benefits its consumer beneficiaries. Established 
procedures, rather than retaliatory trade actions, are 
available to ensure trade is fair.
    Turning to the Department's responsibility for the census, 
we all know that the issue of statistical sampling is 
controversial, and has been deemed unconstitutional strictly 
for census counting purposes. I support a constitutional census 
plan that accurately counts every person.
    This issue is important to me as well as many other Members 
of the Committee because traditional counting methods do not 
provide an accurate count of the population in my home State of 
Arizona, and Arizona citizens have suffered as a result. I look 
forward to Mr. Evans' comments on his plans to ensure an 
accurate census count, especially in those locations where 
there have been documented undercounts in the past.
    I would also like to mention another issue I raised with 
Mr. Evans in private. I believe that one of the most important 
missions of the Commerce Department is to remain politically 
neutral. Commerce Secretaries Daley and Mineta made great 
strides in reducing the political emphasis of the Department. 
Mr. Evans, I hope and expect that you will strive to continue 
and improve upon their efforts.
    In the past, the reputation of the Commerce Department has 
suffered. Charges include allegations that seats on foreign 
trade missions were ``sold'' to major donors, and that Commerce 
Department officials were directly involved in political 
fundraising. Mr. Evans, your vigilance will be essential to 
ensure that the Department remains true to its publicly stated 
mission, rather than an agenda that merely promotes political 
interests.
    Congratulations on your nomination, Mr. Evans. Your 
business experience speaks for itself as you face the 
challenging management task ahead of you. Thank you for your 
appearance today, and your willingness to serve. And 
congratulations to your lovely wife and family.
    I thank you, Mr. Chairman.
    [The prepared statement of Senator McCain follows:]
                Prepared Statement of Hon. John McCain, 
                       U.S. Senator from Arizona
    Mr. Chairman, thank you for convening this hearing. Welcome and 
congratulations to Mr. Evans and his family.
    In his acceptance remarks following the President's nomination, Mr. 
Evans laid out his vision and priorities for the Commerce Department. 
They include the promotion of free enterprise, first in America and 
then abroad, the free-flow of capital, and free and open competition. 
We look forward to hearing about Mr. Evans' plans in more detail today.
    At the outset, however, I want to applaud what I take to be Mr. 
Evans' emphasis on free and fair trade. I am a firm believer in free 
and open competition across international borders. We live in a global 
economy. The rapid rise of the Internet is just one of the more recent 
factors that makes the global economy an undeniable reality.
    Erecting and enforcing trade barriers between and among individual 
countries is simply the wrong policy to pursue. Free trade benefits its 
consumer beneficiaries. Established procedures, rather than retaliatory 
trade actions, are available to ensure trade is fair.
    Turning to the Department's responsibility for the census, we all 
know that the issue of statistical sampling is controversial, and has 
been deemed unconstitutional strictly for census counting purposes. I 
support a constitutional census plan that accurately counts every 
person.
    This issue is important to me because traditional counting methods 
do not provide an accurate count of the population in my home State of 
Arizona, and Arizona's citizens have suffered as a result. I look 
forward to Mr. Evans' comments on his plans to ensure an accurate 
census count, especially in those locations where there have been 
documented undercounts in the past.
    I should also mention another issue I raised with Mr. Evans in 
private. I believe that one of the most important missions of the 
Commerce Department is to remain politically neutral. Commerce 
Secretaries Daley and Mineta made great strides in reducing the 
political emphasis at the Department. Mr. Evans, I hope and expect that 
you will strive to continue and improve upon their efforts.
    In the past, the reputation of the Commerce Department has 
suffered. Charges include allegations that seats on foreign trade 
missions were ``sold'' to major donors, and that Commerce Department 
officials were directly involved in political fundraising. Mr. Evans, 
your vigilance will be essential to ensure that the department remains 
true to its publicly-stated mission, rather than an agenda that merely 
promotes political interests.
    Again, congratulations on your nomination, Mr. Evans. Your business 
experience speaks for itself as you face the challenging management 
task ahead of you. Thank you for your appearance today, and your 
willingness to serve.

    Senator Hollings. Thank you.
    Senator Stevens.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Good morning, Mr. Evans. I am anxious to 
hear your statement. I am going to endorse the statements made 
by our two chairmen here this morning, and welcome you to the 
Committee. Thank you, very much.
    Senator Hollings. Senator Hutchison, you are next on the 
list. But do you want to wait until the introduction?
    Senator Hutchison. Yes, thank you. I will.
    Senator Hollings. Very good then.
    Senator Kerry.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Mr. Chairman, I do want to take a moment.
    I appreciate what Senator Stevens has said. But I first 
want to thank both you and Senator McCain for setting a 
terrific example for the Senate. And I appreciate the fact that 
this Committee is meeting today in a way that I hope paves the 
way for people to understand, particularly when you look at the 
last years of record of this Committee, how effective 
bipartisanship cooperation can be. And I think it shows that no 
one has anything to fear from some of the proposals that are on 
the table for our cooperative effort.
    Mr. Evans, thank you for taking time yesterday to meet and 
I certainly congratulate you on your nomination. I have no 
doubt at all about your capacity to perform one of the most 
important things of the Commerce Department, which will be to 
be a champion of American business and to openness. And that, I 
think, will come extraordinarily naturally and effectively to 
you.
    I think a number of us, as we have expressed to you 
privately, have some concerns in other areas. And I am 
confident that you will address those in the course of the day.
    But let me just say very quickly with respect to, No. 1, a 
major issue is not just opening markets, but it is the 
enforcement of the trade laws. And many people feel that 
enforcement could, in fact, be stronger in a number of 
respects, antidumping and otherwise. We certainly will look for 
your leadership in that regard.
    Second, on the census. Senator McCain just mentioned the 
question of unconstitutionality. Let me just make it clear that 
the Supreme Court only found unconstitutional aspects with 
respect to the constitutional requirement of actual enumeration 
for the apportionment of Congressional seats with respect to 
between the States. It has not found any unconstitutionality, 
nor is there any asserted intrastate with respect to the 
apportionment within a state itself, nor particularly for the 
apportionment of federal funds under Title I, Medicaid, the 
poverty programs and so forth.
    Regrettably, the last census was found to be some, I think 
11 or 12 million people shy. And there was a significant gap, 
therefore, in our ability to be able to deal with the problems 
of the children that we do not want to leave behind. I know the 
President-elect made one of his most significant promises in 
this campaign not to leave any child behind.
    But the question is obviously significant. How can you not 
leave any child behind if you do not count all the children? 
And significantly, we have found that large numbers of the 
population in minority communities were not counted last time. 
That very significantly effects the amount of money that can be 
allocated to them and guarantee that they are, in fact, not 
left behind.
    I think there were 13 million people who were, in fact, not 
counted last time according to the census professionals. You 
will have the discretion to decide according to the 
professional recommendations that will be made to you within 
the department as to whether or not that sampling will be used 
to properly reflect the true population of America. And given 
the fact that that count is 13.2 percent higher than anybody 
expected at 281 million people, there is the capacity to--I do 
not know if it will be. But the professionals in the department 
will shortly tell us if, in fact, there is a significant gap. 
And clearly, we will have an enormous interest in your reaction 
to that.
    The final comment I would make is that you come from a 
State where oil is of enormous significance and has made a 
great contribution to this country. I come from a State, and 
many of us on this Committee represent States where a very 
significant part of our population lives adjacent to the coasts 
of our nation. And the oceans are increasingly stressed, 
increasingly polluted.
    Forty percent of the fisheries are over-fished. And we have 
been struggling, Senator Stevens and this Committee, with the 
reauthorization of the Magnuson Act. You will have the 
jurisdiction which we have increasingly strengthened your hand 
to help guarantee the capacity of our fishing industry to 
continue.
    It is an enormous industry. We boast the second largest 
commercial port in the country, with millions of dollars of 
products, billions of dollars ultimately of gross domestic 
product coming from it. And it is vital to us to have a 
Commerce Secretary who will engage significantly in the 
protection of those fisheries. And I simply want to highlight 
that because it is of such increasing concern to so many of us 
on the Committee and in the country. And I will have some 
questions with respect to that. But I look forward to that 
opportunity. And I thank the Chair.
    Senator Hollings. Thank you.
    Senator Burns.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Good morning, Mr. Chairman. I guess I never 
really got out of the habit of not addressing you as Mr. 
Chairman. And by the way, over the holidays, from your remarks, 
I had an opportunity to drive through South Carolina and North 
Carolina. And that Highway 85 corridor looked pretty busy to 
me, pretty prosperous down there. I think maybe I am going to 
have to visit your State instead of listening to you.
    I just want to welcome Mr. Evans and our two colleagues 
this morning from Texas. And I am delighted on this 
appointment, by the way, and our visit with Mr. Evans and to 
welcome him here this morning. And I appreciate him stepping 
forward for public service. We realize that public service is 
sometimes not too keenly sought after among successful people 
that we need to get into government and they bring a certain 
amount of expertise to government that we certainly need. And 
we need their knowledge and their judgment. So we appreciate 
you doing this. And we know you do it out of a sacrifice.
    My good friend from Arizona had it right. The new 
technologies, in communications, in international trade, in e-
commerce and the information age, those new technologies do not 
recognize national or international borders.
    So the NTIA is a very important part of the Commerce 
Department, and how we foresee new technologies into areas 
where the majority of Americans can take advantage of those.
    So that's a very important area.
    Also, an important area that I just want to bring to your 
attention is the National Institute of Standards and Technology 
(NIST). NIST is sometimes overlooked, and I would like to 
recognized that institution up the road here in Maryland. It 
contributes so much to the commerce of this country and to 
facilitate some new things.
    And also, I want to follow up on the words of my friend 
from Massachusetts. I don't know whether they under-counted 13 
million people or not. But they got everybody in Montana. I 
will guarantee you that.
    Now, we have got a land mass of 184,000 square miles. That 
is a pretty fair size pasture. And from Eureka, Montana to 
Alzada, Montana, flying like a crow flies, maybe a little 
straighter, it is further than it is from Chicago to 
Washington, D.C. That is the land mass and you understand land 
mass as far as the State is concerned and so does my friend 
here on my right.
    But we have got 902,000 people in Montana now. And we still 
only have one Representative. And that is asking a lot whenever 
we go through reapportionment. So whenever we talk about 
recognizing population and the representation in this Congress, 
I think I have got a pretty good argument.
    But, welcome to this town. I call it 17 square miles of 
logic-free environment. But knowing you, you will adapt very 
quickly.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Burns follows:]
               Prepared Statement of Hon. Conrad Burns, 
                       U.S. Senator from Montana
    Thank you Mr. Chairman, I look forward to working with Secretary 
Evans upon his confirmation. I'll keep my statement brief and address 
any questions I have at the appropriate time.
    It is my belief that the responsibilities of the Department of 
Commerce are very diverse considering the Department's limited budget. 
Among the most important of those tasks are the National 
Telecommunications and Information Administration.
    The NTIA serves an important role in making sure that advanced 
technologies are available in rural areas and this Committee has always 
enjoyed a close working relationship with that office. We need to 
continue that focus. The NTIA is one of the most important offices in 
the Department of Commerce.
    Furthermore, it is important that the Commerce Department recognize 
its' role as the nation's watchdog on trade matters. During the 1990s, 
agricultural economies have been devastated by weather, market 
conditions, global economics and most importantly, poorly authored 
trade agreements.
    It is the joint role of the Commerce Department and the office of 
the United States Trade Representative to shield all economies--
including agricultural economies--from trade barriers of other 
governments.
    On August 28 of last year, I along with several colleagues on both 
sides of the aisle sent similar letters to Secy. Mineta addressing the 
impact of other nations' trade practices on American livestock 
producers. That letter requested the Department of Commerce produce a 
report that compares America's trade practices with other cattle 
exporting nations.
    We are all aware that unfair trade subsidies. Referencing a 
comparison of those subsidies globally and in one single report would 
provide our trade negotiators, Congressional representatives--and most 
important--those who represent our livestock producers with a valuable 
tool.
    As we go into this next round of WTO negotiations--it would be very 
helpful to have reference a report conducted by the Commerce Department 
and independent of other government agencies including the USTR and the 
Department of Agriculture.
    Although the National Institute of Standards and Technology is 
sometimes overlooked, I would like to recognize that institution for 
the research conducted just up the road in Maryland. They have provided 
our nation with valuable R&D that has led to the manufacture of very 
useful products.
    Furthermore, as the Secretary of Commerce, Mr. Evans will be 
responsible for the Patent and Trademark office, NOAA (National Oceanic 
and Atmospheric Administration), the Economic Development 
Administration and the Technology Administration. The roles of these 
offices are all very important to our nation.
    Finally, the Commerce Department is responsible for the Census 
Department. Last month, Montana learned we lost in our opportunity to 
gain another Congressional seat by less than 10,000 votes. It is 
probably one of the most frustrating losses considering Montana's at-
large Congressional seat is now the nation's largest Congressional 
district in America. Congressman Dennis Rehberg is responsible to 
represent nearly a million people in the nation's fourth largest State.
    Finally, I have enjoyed the opportunity of working with past 
administrations and the staff at the Department of Commerce. I look 
forward to continuing that relationship. I look forward to hearing from 
Mr. Evans.
    Thank you, Mr. Chairman.

    Senator Hollings. Thank you, very much.
    Senator Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Mr. Evans, I was particularly grateful 
to have a chance to meet with you. And I found you, frankly, 
even on first meeting, to be very direct, very candid, very 
pragmatic. At the same time, interested in business success. On 
the other hand, very sort of instinctively, intuitively people-
oriented in your nature. And I want to say that before I say 
anything else at all. And I will look forward to supporting 
your nomination with a lot of enthusiasm.
    Let me just make three quick points which we discussed, and 
one of which I will ask a further question on. The steel 
industry is in very dire crisis. It is not impossible that very 
shortly about 50 percent of the steel industry in the United 
States will be in bankruptcy or in financial comparable status.
    Vice President-elect Dick Cheney came to Weirton, West 
Virginia, and said that there could not be a defense industry 
without a steel industry. It is not simply another industry. It 
has a particular nature to it.
    I just need to say that even though it may create tensions 
within the administration, there really is, in terms of the 
steel industry, a need for the Bush Administration to intervene 
quickly. And I will have more to say about that in questions. 
But this is a genuine, genuine crisis for the industry and for 
all of the people that work within it.
    Second, there are three quick technology issues, one of 
which Senator Conrad Burns, my good friend, has already 
mentioned. The first I would mention would be the question of 
the digital divide which has almost become a cliche, but which 
is becoming in my judgment not only a severe, more severe, 
problem, even as we work to expand our technology 
infrastructure within States, within the country, and obviously 
even more dramatically, within the world.
    NTIA has done a terrific job. They put out a report which 
is called ``Falling Through the Net'' each year. And I would 
hope that that would continue because it is dramatic and it is 
powerful.
    Also, there is an interesting program called the TOP 
program which is the Technology Opportunities Program. Hardly 
anybody has heard of it, but it makes an enormous difference to 
States and to regions which would otherwise be under-served in 
a very dramatic way. And I would just simply call your 
attention to that.
    And third, something we discussed yesterday, the EPSCOT 
program, which is the technology equivalent of taking not just 
University of Texas where you graduated from, in other words, 
the first tier universities--excuse me, Senator Gramm--among 
others, and the Stanfords and the Harvards, et cetera.
    Senator Gramm. Thank you, Senator Rockefeller.
    Senator Rockefeller. But going to first-rate, second level 
universities where first-rate research is being done by first-
rate young researchers who, if given a boost, can do remarkable 
work. It is called the EPSCOT. I just want to put that on the 
record.
    And finally, I want to mention the spectrum management. As 
we discussed yesterday, we go from crisis-to-crisis. We have 
got government needs. We have got new technology needs. We have 
traditional needs. We have no spectrum management strategy. The 
Commerce Department is so heavily involved in that. And I think 
it represents one of the truly important challenges for you and 
for your department and for the country's success as you go 
into your new job.
    Very finally, another rather obscure program, but we have 
to protect our information infrastructure. And I am not just 
talking here about privacy. I am talking about the actual 
protection of it. And you have within your Bureau of Export 
Administration a program called the Critical Infrastructure 
Assurance office. I want to put that on the record. It is 
underfunded, understaffed. And it is the body that protects our 
basic infrastructure.
    Having said that, I do not want people to come back here in 
5 years with us in shambles in this whole area and asking why 
it was that we did not do something when we have the ability 
within your department to take action on that.
    So having said that, I look forward very, very much to 
working with you. I think you will do a wonderful job.
    I thank the Chairman, both chairmen.
    Senator Hollings. Thank you.
    Senator Dorgan.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Thank you, Mr. Chairman. Thank you, Mr. 
Evans and your family for being with us today. And thank you 
for offering to serve our country. It is my intention to 
support your nomination. I think your qualifications will give 
you an opportunity to excel in this particular role. We had an 
opportunity to visit yesterday, for which I am very 
appreciative. I will mention just very briefly, because I know 
we want to get on with the statements. But I do want to say 
that I am very interested in the issues of technology, the 
NTIA, the work it is doing, third-generation wireless. There 
are so many interesting and critically important things that 
are being done in these areas. And you and I talked about that. 
This is breathtaking technology. In some areas, we are well 
ahead. In some areas, we are lagging. And especially third-
generation wireless, we need to be very attentive to that. I 
know we had a visit about it.
    I got in on the last part of Senator Hollings' statement. 
But he has probably said it before. So I may have heard it 
before--on the issue of trade. He comes at this with great 
passion and great aggression.
    And I want to mention that Senator Stevens, Senator Byrd, 
and myself authored legislation that created a trade deficit 
review commission. In fact, Donald Rumsfeld was on that 
commission. And they have just reported. And one of the things 
I said is we need to devote more resources to monitoring 
compliance with trade agreements. The President should request 
more resources for Commerce's market access and compliance 
unit.
    I want to make this point. We have a nearly $80 billion 
trade deficit with Japan. Do you know how many people are 
involved in monitoring our trade relationship with Japan? 
Seven. A nearly $80 billion trade deficit with China. You know 
how many people over in Commerce are involved in monitoring our 
trade relationship with China with respect to enforcement? 
Seven.
    I mean, it is just unthinkable that we are doing this to 
ourselves. We must--we must--enforce, aggressively enforce, 
trade agreements.
    Canada and Mexico. Our Canada trade deficit is estimated to 
be $50 billion. Mexico, $26 billion. Both of them, we have 13 
people monitoring trade components with those two areas. Europe 
the same thing. We now import $1 billion more a day every day 
in goods than we export. We have got huge trade problems. The 
largest trade deficit--the largest merchandise trade deficit in 
the history of this country and growing rapidly.
    So we had a long talk about that. I will not continue 
further except to say a number of our colleagues have talked 
about this and it is very important. And as you come to this 
job and this opportunity, I know you will pay some attention to 
it from our discussion yesterday.
    Again, thank you for being willing to serve our country and 
I look forward to supporting your nomination.
    Senator Hollings. Thank you.
    Senator Cleland.

                STATEMENT OF HON. MAX CLELAND, 
                   U.S. SENATOR FROM GEORGIA

    Senator Cleland. Thank you very much, Mr. Chairman and Mr. 
Ranking Member. May I just say what a pleasure it is to be here 
with Mr. Evans and our distinguished colleagues from the great 
state of Texas. I feel that this hearing is a harbinger of good 
things to come and bipartisan cooperation on behalf of our 
country and behalf of our federal government.
    Mr. Evans, as Secretary of Commerce, you will have an 
extraordinary responsibility presiding over the department in 
our federal government which is the focal point for federal 
policy which actually helps shape the economy of the new 
millennium. You will monitor and administer an incredible 
variety of programs and policies, central to preserving 
America's economic and technological leadership well into the 
21st century.
    I do not have to remind you how great an impact the 
Commerce Department has on our 50 States. In terms of our 
states, in terms of institutions of higher learning, Senator 
Rockefeller did mention to Senator Gramm that there were other 
institutions like the University of Georgia, from which you 
graduated, and Emory University, from which I graduated, that 
were as great as the University of Texas. And we are delighted 
to see that recognition.
    In my state, export promotion is critical. We have two 
major ports that open into the Atlantic and the largest airport 
and busiest airport in the world. And export promotion is 
critical to the continuance of a successful economy in my State 
as well as trade enforcement, enforcement of our trade laws.
    How that goes will depend on the future of Georgia peanuts, 
Vidalia onions, textiles, Coca-Cola, poultry and so forth, to 
keep our economy going. Economic development and technology 
advances certainly can open doors of opportunity for our 
businesses, large and small, and for our people, whether they 
be on a farm or in the city.
    And, of course, NOAA, the national weather service is vital 
to the life and livelihood of the farmers, sailors, aviators of 
our state. We have had, unfortunately, a situation where in the 
last 6 years each year has seen some major weather disaster, a 
tornado, flash flood, et cetera. NOAA is critical to in effect 
literally the survival of a lot of people in my State.
    The Department of Commerce is also the steward of the 
census. The one mechanism we have to establish the nation's 
population and to ensure equitable and fair representation here 
in the Congress and the allocation of federal funds where 
they're most needed. I think it is essential that your 
department do all in its power to produce as accurate a 
population count as possible, and one which includes the 
vulnerable Americans who have been missed in the past.
    I would just like to say that I believe the approach 
developed by Secretary Mineta and the current leadership within 
the Census Bureau is the right approach, I think, one which 
squares the need for accuracy with the requirements laid down 
by the courts. And I hope we can work together in a bipartisan 
way to secure such a result under your leadership.
    I would just like to join the Chairman and Ranking Member 
in welcoming you before the Committee. I wish you success in 
meeting the challenges before you. And I would just like to 
offer you these words from John Kennedy. He said ``My 
experience in government is that when things are 
noncontroversial, beautifully coordinated, and all the rest, it 
must be that not much is going on.'' You have my support and my 
friendship and I wish you well in your new endeavors. Thank 
you, very much.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Senator Cleland follows:]
                Prepared Statement of Hon. Max Cleland, 
                       U.S. Senator from Georgia
    Mr. Chairman and Mr. Ranking Member, thank you for convening this 
hearing which hopefully will serve as the harbinger of the bipartisan 
cooperation our country needs and the federal government requires at 
this extraordinary juncture in our nation's history.
    Mr. Evans, as Secretary of Commerce you will have before you an 
awesome responsibility--presiding over the department in our federal 
government which is the focal point for federal policy shaping the 
economy of the new millennium. You will monitor and administer an 
incredible variety of programs and policies which are central to 
preserving America's economic and technological leadership well into 
the 21st century and beyond.
    I don't have to tell you how great an impact the Commerce 
Department has on our 50 States. In my state of Georgia, export 
promotion and trade enforcement can determine how well our home-grown 
products fare in foreign markets, be they Georgia peanuts, Vidalia 
onions, textiles or soft drinks. Economic development and technology 
advances can open doors of opportunity for Georgia's large and small 
businesses, for our farms, and the people they employ. They can be a 
lifeline for our disadvantaged communities.
    NOAA and the National Weather Service are vital to the life and 
livelihood of the farmers, sailors, and aviators of my state. The 
ability to provide accurate and timely information regarding tornados, 
hurricanes and flash floods affects not only every Georgian, but every 
American from Savannah to San Antonio to Sacramento.
    The Department of Commerce is also the steward of the census, the 
one mechanism we have to establish the nation's population and to 
ensure equitable representation in Congress and the allocation of 
federal funds where they are most needed. It is essential that the 
Department do all in its power to produce as accurate a population 
count as possible--and one which includes the vulnerable Americans who 
have in the past been missed. I must say that I believe the approach 
developed by Secretary Mineta and the current leadership within the 
Census Bureau is the right approach--one which squares the need for 
accuracy with the requirements laid down by the courts, and I hope we 
can work together in a bipartisan fashion to secure such a result under 
your leadership.
    I join the Chairman and Ranking Member in welcoming you before this 
Committee. I wish you success in meeting the challenges before you and 
offer you these words from John Kennedy: ``My experience in 
government,'' he said, ``is that when things are noncontroversial, 
beautifully coordinated, and all the rest, it must be that not much is 
going on.''

    Senator Hollings. Thank you.
    Senator Snowe.

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you very much, Mr. Chairman. And I too 
want to join my colleagues here today in welcoming you, Mr. 
Evans, to this Committee and to congratulate you as well on 
your nomination as Secretary of Commerce by President-elect 
Bush. I also want to say you are in good company here today 
with our colleagues Senator Gramm and Senator Hutchison.
    It is certainly clear from your background and your 
experience that you bring a broad range and expertise to the 
position for which you have been selected. As others have 
indicated here today, the Department of Commerce has a broad 
range of jurisdiction among a number of agencies. Therefore, 
the Secretary of Commerce does have tremendous 
responsibilities. There is every indication that you possess 
the credentials and the knowledge and the expertise that is 
consistent with the post. We need to have an individual who has 
clear vision, innovative ideas and skill and administrative 
abilities. I think that you will be a tremendous asset to the 
Commerce Department efforts in export promotion which is key to 
providing a strong competitive environment in which our 
businesses can thrive. I believe small and large businesses 
must have the opportunities to export abroad to maintain a 
strong economy.
    Others, particularly Senator Dorgan, have talked about 
being vigilant about unfair trade practices. Certainly, it is a 
concern to have the estimated $440 billion trade deficit which 
we incurred last year. This unprecedented deficit mentioned by 
Senator Dorgan underscores the Federal Trade Deficit Review 
Commission finding that long-term trade deficits are not 
sustainable or desirable for the long term. And that is 
certainly something that we have to be mindful of with the 
passage and the ratification of the trade agreement with China. 
We have to be vigilant in China's compliance and enforcement 
with WTO agreements without any question.
    And I would encourage you, as I was discussing with you 
yesterday in our meeting, to seek and fill the position that 
was proposed by the Clinton Administration last year with 
respect to having a deputy secretary at the Commerce Department 
to monitor China's compliance with WTO agreements, especially 
for import-sensitive businesses like textiles and apparel that 
have been devastated in my State and the State of the Chairman 
of this Committee over the last decade. We have experienced 
irrevocable losses across the nation. I think it is all the 
more important that we have a responsibility--indeed an 
obligation--to strongly enforce the principles of these 
agreements to make sure that their end of the bargain is being 
upheld.
    As Chair of the Ocean and Fisheries Subcommittee, I also 
would call your attention to our nation's fisheries. I guess I 
do not have to remind you, given the coastal State that you 
come from, Mr. Evans, and our colleagues. But our nation's 
fisheries are an invaluable resource, certainly to my State as 
well and to this country. We have seen the value of those 
resources increase by more than 11 percent last year alone.
    I would have to say my biggest concern is in holding 
regulatory agencies accountable for the regulatory decisions 
they make. In this instance, as we prepare to reauthorize the 
Magnuson-Stevens Act which is the primary law governing our 
nation's fisheries, we have to make sure that we have the good 
science to back up those regulatory decisions.
    I conducted six hearings across this country last year, and 
the major complaint that I heard from the wide range of 
stakeholders is that the agency, the National Marine Fisheries 
Service, failed to provide the kind of science to back up and 
to reinforce the strong regulatory action that they were 
taking.
    Also what is disturbing is the trend toward litigation 
driving the agency's decisions because of the lack of good 
science.
    So this transition to sustainable fisheries has been a 
difficult one that has really culminated in a never-ending 
morass of regulations upon regulations.
    To cite an example, the New England groundfishing 
industry--as Senator Kerry would also acknowledge--has faced 
more changes than one could count. I mean, in 1999 alone, they 
faced five different regulatory changes. In the year 2000, four 
different changes. You can appreciate this as a businessman. 
You like to be able to plan. The fishing industry has not been 
able to plan more than a few months ahead.
    That is unacceptable and clearly intolerable and it is 
something that could change. And I hope that with your 
background and experience that you would be able to lead that 
change in improving the management of that agency as well as 
the overall fishing industry.
    I would also commend your attention to the Economic 
Development Administration. That is a very important program to 
many areas of the country, including the State of Maine. It has 
in its 35 years of existence provided more than $16 billion to 
distressed areas. It has created more than 2.9 million jobs. 
And I hope that you will continue to sustain that agency, to 
help revitalize areas of the country that have been bypassed in 
this unprecedented era of economic growth.
    And finally, on the technology issue, I too want to 
underscore the importance of the Technology Opportunities 
Program that is within the National Telecommunications and 
Information Administration, because it is important to 
revitalizing and rejuvenating areas of the country that have 
not experienced strong economic growth and who are apt to be 
left behind in this information revolution.
    So, again, Mr. Evans, I thank you for being here today. We 
appreciate the kind of commitment and contribution you are 
prepared to make. Thank you.
    Senator Hollings. Thank you.
    Senator Inouye.

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. Thank you very much, Mr. Chairman. I wish 
to join my colleagues in congratulating Mr. Evans on his 
nomination. As you know, I have the privilege of representing 
an island State. And so, your agency, NOAA, is extremely 
important to us. In fact, over half of our budget concerns 
NOAA. And I am certain that in your hands we will be able to 
succeed and thrive and flourish in Hawaii.
    I am also concerned about the Census Bureau. And so if I 
may, I would like to, Mr. Chairman, submit questions on both 
these items. And I further request that my full statement be 
made part of the record.
    Senator Hollings. Without objection.
    Senator Inouye. Congratulations. And you have got my vote.
    [The prepared statement of Senator Inouye follows:]
             Prepared Statement of Hon. Daniel K. Inouye, 
                        U.S. Senator from Hawaii
    I wish to congratulate you on your nomination to serve as our 
nation's next Secretary of Commerce. The activities within the 
jurisdiction of the Commerce Department touch the daily lives of 
Americans in many ways. I look forward to hearing your vision on how 
the new administration plans to fulfill the department's mission to 
promote job creation, economic growth, and effective management and 
stewardship of our nation's resources to ensure sustainable economic 
opportunities. Of particular interest would be your vision for the 
National Oceanic and Atmospheric Administration, which represents more 
than 50 percent of the Commerce Department's budget.
    I am also looking forward to hearing your views on a number of key 
issues pending before the department including the process for 
determining the final accounting of the 2000 census and addressing the 
growing number of fisheries-related lawsuits.

    Senator Hollings. The Committee record will stay open for 
questions by the other Members. The Committee is pleased to 
have our distinguished colleagues Senator Gramm and Senator 
Hutchison to present the nominee.
    Senator Gramm.

                 STATEMENT OF HON. PHIL GRAMM, 
                    U.S. SENATOR FROM TEXAS

    Senator Gramm. Mr. Chairman and Members of the Commerce 
Committee, let me thank you for having this early hearing. It 
is a great privilege for me to be here today to introduce my 
fellow Texan and my friend, Donald L. Evans and to introduce 
you to him as the President's nominee for Secretary of 
Commerce.
    Don Evans has served as Chairman of the Board and CEO of a 
major oil and gas exploration company with a billion dollars of 
private assets. He knows commerce. He knows the American 
capitalistic system and how it works. Few candidates for 
Secretary of Commerce have ever brought the rich and lengthy 
experience in the private sector of the economy to this job 
that Don Evans brings.
    I think as an indication of his ability as a manager, he 
became CEO of a billion dollar company when he was 33 years 
old. He has served our State in many positions of leadership, 
certainly one of the most important is Chairman of the Board of 
Regents of the University of Texas which is a huge concern, 
80,000 staff members, $6 billion budget. In my humble opinion, 
they spend too much money on athletics and not enough on 
academics. But he has served with great distinction as Chairman 
of the Board of Regents of the University of Texas.
    He has been very active in philanthropic activities. He was 
the driving force behind Native Vision, which is a program to 
assist Native American children. And that program, which is 
largely his creation, now provides services to some 10,000 
Native American children in America.
    He is a graduate of the University of Texas in mechanical 
engineering which is one of their most outstanding programs at 
the university. He has an MBA from there. He is a distinguished 
alumni of the business school. And Don is what we would call in 
Texas a ``top hand.'' He is the kind of guy you want on your 
side. You can ask our new President about having Don Evans on 
your side. And I think the happy condition we are in today is 
finding ourselves where through our action in the Senate we can 
put Don Evans on America's side as Secretary of Commerce. So I 
am very happy to be here. And I very strongly recommend to this 
distinguished Committee that Don Evans be reported favorably 
and confirmed by the Senate.
    Senator Hollings. Thank you.
    Now our important Committee Member, Senator Hutchison.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you Mr. Chairman. And I want to 
thank you and Senator McCain for working together to have this 
early hearing so that we can get an early confirmation.
    I called Don Evans on the day after his appointment. And I 
said, ``Don, if there is anything I can do to help you, let me 
know.'' And he said, ``Well, if you could remind me of every 
place I lived when I went to the University of Texas.'' It 
seemed that I got him while he was filling out his FBI form.
    I want to say that I am particularly pleased that our 
President-elect has chosen someone who is a true entrepreneur, 
someone who knows the ups and downs of business. We all know 
what kind of peaks and valleys we see in the oil industry. And 
I think that is good experience. Because this is a man who 
knows first-hand what the businesses of our country go through 
when we have economic swings as we are seeing today.
    I think it is particularly important that as he says he has 
been tested. He has been through the whole cycle, the ups and 
the downs. And I think he will have good advice for our 
businesses and our country. But mostly he will understand what 
they are going through and how we can level out those peaks and 
valleys.
    Second, from a non-credible source, an Aggie, no less, you 
have heard of his service to the University of Texas. But in 
fact, I am also an alum of the University of Texas and very 
proud that he has held the very highest position of leadership 
in our mutual university and that he serves as Chairman of the 
Board of Regents. He has done a wonderful job.
    Senator Rockefeller, you were talking about the importance 
of research and bringing fledgling researchers up through our 
system in America, that was one of the great strengths of Don 
Evans' service as Chairman of the University of Texas Board of 
Regents. He focused on research and increased the opportunities 
for our young researchers at the University of Texas throughout 
the system because he too felt that that was so important. So I 
have a feeling that research is going to be one of the 
important priorities that he will bring to the Commerce 
Department.
    I do not need to go back through his resume because I think 
Senator Gramm has given you that. But I will just say that I am 
very proud that this Texan has been chosen to lead the 
Department of Commerce. And I do hope that our Committee will 
confirm him quickly so that he can represent the best that is 
America in our free enterprise system to the world.
    Thank you.
    [The prepared statement of Senator Hutchison follows:]
           Prepared Statement of Hon. Kay Bailey Hutchison, 
                        U.S. Senator from Texas
    Thank you, Mr. Chairman. It is my great privilege to stand before 
the Committee today for the purpose of introducing a fellow Texan and 
great friend, Don Evans, the nominee-designate for the position of 
Secretary of Commerce in the Bush Administration.
    Don graduated with a degree in mechanical engineering from my alma 
mater, the University of Texas. He serves as chairman of the 
University's Board of Regents.
    The mantle of promoting and protecting America's commercial 
interests throughout the globe is a good fit for a man who has been a 
hands-on businessperson with real-world experience.
    Free enterprise has been Don's life. As one headline put it, Don 
went from ``roughneck to oil exec''--Don started work on a drilling rig 
for the Tom Brown company in Midland and took only 5 years to become 
president of the billion-dollar company, at age 33.
    He's seen the oil and gas business at its peaks in the 1970s and in 
its valleys in the 1980s. He's Texas tough. He's seen prices high and 
low, the dry holes and the gushers. This entrepreneur says: ``I have 
been cycle-tested. I have been through the whole cycle.'' Don is well 
prepared for the cycles and challenges of running a large Federal 
department. He has collaborated with many heads of businesses, in Texas 
and elsewhere, and as Secretary of Commerce, he will work effectively 
with America's executives.
    I don't want to embarrass the distinguished Senior Senator from 
Texas seated next to me, because I know he is a devoted Aggie, and I 
want to take a moment to pay tribute to Don's efforts at the University 
of Texas. The UT system has a $5.8 billion operating budget and would 
rank as the fifth-largest company in the State of Texas if it were a 
private entity. UT has 70,000 employees and 153,000 students.
    Again, I would like to applaud President-elect Bush's choice of Don 
for Commerce Secretary. I know he will face the challenges ahead with 
the same acumen he showed in the private sector.

    Senator Hollings. Thank you very much.
    The Chair is now pleased to recognize the nominee, Mr. 
Evans.

 STATEMENT OF MR. DONALD L. EVANS, NOMINEE TO BE SECRETARY OF 
                   THE DEPARTMENT OF COMMERCE

    Mr. Evans. Mr. Chairman, thank you very, very much. As 
Senator Gramm is leaving, I must say to you that it is not 
often that--in our State anyway--that you get somebody from 
Texas A&M University to say something nice about somebody from 
the University of Texas. I appreciated those kind words by both 
Senator Gramm and Senator Hutchison.
    I have got a short prepared statement. Before I get to 
that, I want to apologize to Senator Inouye for not yet getting 
by to see you, Senator. I look forward to that. I must say that 
the last 2 days in Washington, D.C. have been very moving to 
me, moving in the sense I have met, in some cases for the first 
time, U.S. Senators and in other cases visit with Senators that 
I already have known. There is a sense of the great bipartisan 
spirit here.
    As I move into the short prepared statement, I want to 
thank all of the Senators that I have had the chance to visit 
with and spend time with and listen to. And please know that I 
have come away from those meetings with the sense that these 
are all Senators that I look very forward to working with, to 
hearing from, to talking to, to hearing what is on your mind. 
And knowing that there are many ways that we can solve these 
common problems together. So I thank you for your indulgence 
the last 24 hours, 48 hours, as I come by to see you. Because I 
know how busy your schedules are.
    Mr. Chairman, Senator McCain, other distinguished Members 
of this Committee, thank you for the opportunity to appear 
before you this morning. I deeply appreciate again those 
introductions from my longtime friends, Senator Gramm and 
Senator Hutchison, and your words of kindness to Susie and me 
are very much appreciated.
    Since President-elect Bush announced his intent to nominate 
me to the position of Secretary of Commerce, I received nothing 
but the most gracious kind of welcome here in Washington, D.C. 
Democrats and Republicans, career agency employees, 
Congressional staff, and the public have all have extended warm 
and helping hands. My meetings over the past 2 days, as I have 
already referred to, with many of the Committee Members have 
been particularly helpful to me. I trust this is only the first 
step in what will be a regular, productive dialog.
    If confirmed as Secretary, I will continue to seek your 
views and counsel so that together we will meet the challenges 
and missions of this very vital department that we are talking 
about today.
    Secretary Mineta and his staff have been extraordinarily 
helpful. Many worked over the holidays to assist our transition 
team. I am very pleased that Norm will continue his public 
service as Secretary of Transportation. He will be close at 
hand, somebody that I will consult frequently.
    I especially also wish to extend my gratitude to former 
Secretary Bill Daley for his friendship, for his assistance and 
for his advice. I met with Bill on one occasion since the 
election. I have talked to him on numerous occasions. He is one 
that I will seek advice from frequently. His generosity once 
again affirms the nature of our democracy. It's vibrant and 
competitive, but also respectful and committed to the common 
good of this great nation. And we all realize that beyond 
anything else, we are here to serve our fellow Americans.
    Mr. Chairman, I am humbly grateful and honored that 
President-elect Bush would nominate me for this new role. I am 
eager to take on the challenge.
    President-elect Bush has observed that it is not 
government, but the entrepreneurial spirit of the American 
people that creates wealth. What government can do, however, is 
to help create an environment in which this spirit flourishes, 
an environment that promotes innovation, risk-taking and equal 
opportunity.
    President-elect Bush clearly understands the challenges of 
competing in a global economy. But challenges are neither to be 
avoided nor feared. Americans have never had greater 
opportunities to pursue their dreams than today. If confirmed 
as Secretary, my mission for the Department of Commerce will be 
to foster a marketplace where ideas and energy can thrive, 
where the entrepreneurial spirit will flourish.
    I must say that when I worked as a roughneck on the 
drilling rigs in the oilfields of West Texas some 30 years ago, 
I never expected to be nominated or to become Secretary of the 
Cabinet agency charged with promoting the nation's business. 
Nor was I aware of the important training for this role that I 
was receiving while I worked my way up the chain as an 
engineer, as a manager at industrial and energy companies or 
when I struggled to find a way for my company to survive the 
severe downturn that hit the oil patch in the 1980s and 1990s 
or as I chaired the Board of Regents of the University of 
Texas, a system of nine educational and six health care science 
centers--having 79,000 employees and having over 154,000 very 
cherished students. In a sense, I have been preparing for my 
new responsibilities, if confirmed, throughout my working 
career.
    My experience has taught me this: Our free enterprise 
system is unmatched in its ability to provide economic freedom 
and opportunity and hope for all of our citizens. If confirmed 
as Secretary of Commerce, my objective will be to direct the 
department's great and diverse resources to the common cause of 
fostering economic strength at home, and indeed, abroad. Every 
part of the Commerce Department will join in this purpose.
    Two precepts will guide our work. First, no sector of the 
U.S. economy operates in isolation from the global economy. 
Every worker and every employer faces the challenges of 
competition from the world's farthest reaches. Our job will be 
to ensure that those challenges are turned into opportunities.
    Second, our nation's greatest export is its democratic 
principles. Those principles best take hold in a world of 
unshackled economic opportunity. Whether in seeking agreement 
on rules for e-commerce or the elimination of free-enterprise-
distorting trade subsidies, we want to foster a world of 
private, not government, competition.
    This is a critical role for the Commerce Department, to 
partner with the U.S. Trade Representative to ensure that our 
trade agreements provide more meaningful opportunities for 
exports of American goods and services--trade must never be a 
one-way street. We must ensure our workers and businesses--
small and large, rural and urban--are protected against unfair 
trade competition, while gaining the great benefits of larger 
global markets.
    Equally important is the proper stewardship of our oceans, 
fisheries, and marine environment. The research and regulatory 
roles of the National Oceanic and Atmospheric Administration 
contribute greatly to our national security and to the 
livelihoods of all our citizens, especially those who live and 
work in coastal areas. NOAA's important research will also be 
critical to decisions that we will make as to the global 
climate change.
    Fostering America's technological leadership will be a 
central concern of the Commerce Department under my leadership. 
American inventiveness is a national treasure. The great 
inventors of our history, from Edison and Bell to McCormick and 
Whitney, would marvel today at the power and reach of American 
technology and its swift contributions to our standard of 
living.
    The words of Lincoln that are chiseled in stone above the 
Commerce Department's entryway on Fifteenth Street remind us of 
a key mission: It is our patent system, Lincoln noted, that has 
``added the fuel of interest to the fire of genius.'' The 
nation's security and prosperity rely on the promise of 
effective intellectual property protection. Maximizing 
competitive opportunity also results from the establishment of 
appropriate industrial standards, from the exploitation of new 
technologies and the new means of doing business, and from the 
predictable, common sense administration of controls on exports 
of strategically important goods.
    The wide range of interests and concerns expressed to me by 
many of you over the past few days matches the very diversity 
of the Department itself. I want you to know that your issues 
are my issues. Whatever debates there have been previously or 
may be in the future about the shape and substance of the 
Commerce Department, I intend simply to make the Department 
work well for all Americans: all workers, all businessmen and 
women, fishermen, investors, inventors, scientists, and 
consumers alike. I assure the Committee that if I am confirmed 
as Secretary, the Department of Commerce will pursue our 
missions with energy, integrity, and constant awareness that we 
labor in the public interest.
    In closing, I want to thank my family for supporting my 
decision to enter public service. I love this country. I love 
all Americans, and I will cherish this opportunity to serve 
this great nation.
    Again, my appreciation for the opportunity to appear before 
you today. I welcome an opportunity to answer any questions 
that you might have.
    [The prepared statement of Mr. Donald L. Evans follows:]
 Prepared Statement of Donald L. Evans, Nominee to be Secretary of the 
                         Department of Commerce
    Mr. Chairman, Senator McCain, Members of the Committee.
    Thank you for this opportunity to appear before you this morning. I 
deeply appreciate the introductions by my long-time friends, Phil Gramm 
and Kay Bailey Hutchison and your words of welcome for Susie and me.
    Since President-elect Bush announced his intent to nominate me to 
the position of Secretary of Commerce, I have received nothing but the 
most gracious welcome here in Washington. Democrats and Republicans, 
career agency employees, Congressional staff, and the public all have 
extended warm and helping hands. My meetings over the past 2 days with 
many of the Committee members have been particularly helpful to me. I 
trust this is only the first step in what will be a regular, productive 
dialog. As Secretary, I will continue to seek your views and counsel.
    Secretary Mineta and his staff have been extraordinarily helpful. 
Many worked over the holidays to assist our transition team. I am very 
pleased that Norm will continue his public service as Secretary of 
Transportation--and that he will not be able to avoid my calls for his 
advice. I look forward to continued work with this most esteemed 
colleague.
    I especially wish also to express my gratitude to former Secretary 
Bill Daley for his assistance and advice. His generosity once again 
affirms the nature of our democracy--vibrant and competitive but also 
respectful and committed to the common good.
    Mr. Chairman, I am humbled and honored that President-elect Bush 
would nominate me for this new role. And I am eager to take on the 
challenge.
    President-elect Bush has often observed that it is not government, 
but the entrepreneurial spirit of the American people that creates 
wealth. What government can do, however, is to help create an 
environment in which that spirit flourishes--an environment that 
promotes innovation, risk-taking and equal opportunity.
    President-elect Bush clearly understands the challenges of 
competing in a global economy. But challenges are neither to be avoided 
nor feared. Americans have never had greater opportunities to pursue 
their dreams. If confirmed as Secretary, my mission for the Department 
of Commerce will be to foster a marketplace where ideas and energy can 
thrive, where the entrepreneurial spirit indeed will flourish.
    I must say that when I worked as a roughneck on drilling rigs some 
30 years ago, I never expected to be nominated to become Secretary of 
the Cabinet agency charged with promoting the nation's business. Nor 
was I aware of the important training for this role that I was 
receiving while I worked my way up the chain as an engineer and manager 
at industrial and energy companies; when I struggled to find a way for 
my company to survive the severe downturn that hit the oil patch in the 
late 1980s; or as I chaired the Regents of the University of Texas, a 
system of nine educational and six health care science centers, having 
79,000 employees and 154,000 students. In a sense, I have been 
preparing for my new responsibilities throughout my working career.
    My experience has taught me this: Our free enterprise system is 
unmatched in its ability to provide economic freedom and opportunity 
for all of our citizens. If confirmed as Secretary of Commerce, my 
objective will be to direct the Department's great and diverse 
resources to the common cause of fostering economic strength at home 
and abroad. Every part of the Commerce Department will join in this 
purpose.
    Two precepts will guide our work. First, no sector of the U.S. 
economy operates in isolation from the global economy. Every worker and 
every employer faces the challenge of competition from the world's 
farthest reaches. Our job will be to ensure that those challenges are 
turned into opportunities.
    Second, our nation's greatest export is its democratic principles. 
Those principles best take hold in a world of unshackled economic 
opportunity. Whether in seeking agreement on rules for e-commerce or 
the elimination of trade-distorting subsidies, we want to foster of 
world of private not government competition.
    There thus will be no more important role for the Commerce 
Department than to partner with the U.S. Trade Representative to ensure 
that our trade agreements provide meaningful opportunities for exports 
of American goods and services--trade must never be a one-way street. 
We must ensure our workers and businesses--small and large, rural and 
urban--are protected against unfair trade competition while gaining the 
great benefits of larger global markets.
    Equally important is the proper stewardship of our oceans, 
fisheries, and marine environment. The research and regulatory roles of 
the National Oceanic and Atmospheric Administration contribute greatly 
to our national security and to the livelihoods of our citizens, 
especially those who live and work in coastal areas.
    Fostering America's technological leadership will be a central 
concern of the Commerce Department under my leadership. American 
inventiveness is a national treasure. The great inventors of our 
history, from Edison and Bell to McCormick and Whitney, would marvel 
today at the power and reach of American technology and its swift 
contributions to our standard of living.
    The words of Lincoln that are chiseled in stone above the Commerce 
Department's entryway on 15th Street remind us of a key mission: It is 
our patent system, Lincoln noted, that has ``added the fuel of interest 
to the fire of genius.'' The nation's security and prosperity rely on 
the promise of effective intellectual property protection. Maximizing 
competitive opportunity also results from the establishment of 
appropriate industrial standards, from the exploitation of new 
technologies and new means of doing business, and from the predictable, 
common sense administration of controls on exports of strategically 
important goods.
    The wide range of interests and concerns expressed to me by many of 
you over the past few days matches the very diversity of the Commerce 
Department itself. I want you to know that your issues are my issues. 
Whatever debates there have been previously or may be in the future 
about the shape and substance of the Commerce Department, I intend 
simply to make the Department work well for all Americans: workers, 
businesses, fishermen, inventors, scientists, and consumers alike. I 
assure the Committee that if I am confirmed as Secretary, the 
Department of Commerce will pursue our missions with energy, integrity, 
and constant awareness that we labor in the public interest.
    In closing, I want to thank my family for supporting my decision to 
enter public service, and to express to you again my appreciation for 
the opportunity to appear before you today. I will be pleased to 
respond to your questions.

    Senator Hollings. Thank you very much, Mr. Evans.
    Two of our colleagues have yet to have an opportunity to 
present opening statements. Senator Hutchison, would you like 
to make a statement?
    Senator Hutchison. No, thank you, Mr. Chairman. I will ask 
questions.
    Senator Hollings. Very good.
    Senator Inouye.
    Senator Inouye. No opening statement.
    Senator Hollings. Very good. We will try to hold it down to 
the 5 minutes so we can get around to everybody.
    When you talk about trade it cannot be a one-way street 
with the opportunity to export, but that is not our problem. 
You remind me of that Small Business Administration 
questionnaire that went out some years ago, Mr. Evans. One 
section said, ``How many employees do you have broken down by 
sex?'' The small businessman said, ``None. Alcoholism is our 
problem.''
    Exports are not our problem. We have got offices all over 
South Carolina. I take almost everything I produce for General 
Electric in Greenville and the Dozer turbines down in Florence 
where we are making the magnetic resonance images. We export 
more than 50 percent of that. BMW that I have in South Carolina 
exports 95 percent. So we know all about exports.
    It is, as Senator Dorgan has said, almost a $400 billion 
trade deficit in imports. That is what we had with respect to 
the International Trade Commission. You have the International 
Trade Administration. You have a finding of a dumping 
violation. And supposedly to enforce it was the Commission. But 
they are a patsy. They never find injury and never have 
enforcement.
    What we really need is a change of mindset to get away from 
the foreign trade as foreign aid. Fine. Whoopee for the 
Marshall Plan. It has worked. Capitalism has defeated 
communism.
    But right to your particular industry. You had a couple of 
years ago the dumping of oil at less than cost. Louisiana, 
Oklahoma and Texas brought a dumping case. But what happened? 
Politically, they said, ``Wait a minute. If we make a finding 
in favor, then we are going to run up the price of gasoline 
during an election year.''
    So they bucked it up to the Court of International Trade on 
a technology issue about standing. Now it is back and we will 
see where we go from there. But the market has changed.
    But I want to give you that as an example because the 
Zenith case, the entire Cabinet after a 3-year trial and a 
Supreme Court finding and everything else of that kind, with 
President Reagan, the Cabinet had voted to go ahead and enforce 
the finding. And instead, President Reagan came in and said, 
``Well, I have just talked to Nakasone. And we are going to let 
that one go by.''
    And time and time again this has happened. So America's 
industry says ``the heck with these trade lawyers and spending 
3 years and millions of dollars in court. I am going to go over 
and join them.''
    And so before you can produce the Boeing 777 or sell it in 
the People's Republic, they say you have got to produce half of 
it in downtown Shanghai. You pick up Monday's Wall Street 
Journal and it says we are going to try to compete now with the 
747 super-duper 747. The Europeans do not have one, but the 
AirBus crowd is now trying to go to 600 passengers.
    So in order to compete, we are going to that. But where are 
we going? To Japan. Look at the headline, the Wall Street 
Journal. We are going to produce it in downtown Japan.
    That is why the Boeing machine has led to the strike 
demonstration December a year ago. Not the crazies that came 
out of Oregon--excuse me, Ron--that tried to break up Main 
Street there in Seattle, you know, that crowd that came. I am 
talking about the legitimate AFL/CIO demonstration against WTO. 
That was led by America's premier export industry.
    The problem is not exports. We are losing our industrial 
backbone. With respect--and you have got to change the mindset 
in you and everybody else. That is why we plead with you to 
please take over so that we have got a proper, not just--we do 
not need a sheriff or chief of police to enforce. We need a 
whole mindset to comply. That is all. Everybody else uses their 
market to promote the interests of their manufacturer, and we 
have got to start doing the same.
    With respect to the steel, as Senator Rockefeller said, 
that is exactly right. Look at Bethlehem. They have modernized 
and everything else. But look at their stock. Why? Because you 
are competing with the World Bank. The World Bank goes the 
world around. And they said, ``Wait a minute. You are a Third 
World emerging economy here. Before you become a nation state, 
you have got to produce the steel for the weapons of war and 
the tools of industry.''
    I have done this down in South Carolina. I have Nucor and 
all the rest of the steel plants. But they went into Saudi 
Arabia when poor Willie Korf died in an air crash. He was 
building steel plants in China.
    So we build 2 percent steel plants the world around. And 
then we come back to our workers and steel plants here and say, 
``Oh, you have got to compete. Productivity, productivity.'' 
And then give them all the requirements that I talked about.
    So you have got to enforce the steel dumping. That is what 
you appeared before the group, International Trade Commission, 
and made an eloquent statement about that need.
    With respect to fisheries that Senator Snowe and Senator 
Kerry pointed out, we actually had to hold up an almost 
continuing resolution and could not adjourn just before 
Christmas on account of a fisheries case--the sea lions up in 
Alaska. And we had not gotten the right science to feed into 
the right court finding to protect those fisherman up there in 
Alaska.
    So a little thing--all for the want of a horseshoe nail--a 
little thing in your department becomes an almost super 
important matter here on the Hill itself. So look at that.
    I could go down several other things, but I want to comply 
with that red light.
    The next person, I think, was Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I note the presence of Congresswoman Jennifer Dunn from the 
State of Washington, who is here in support of our nominee and 
we thank you for being here, Congresswoman Dunn.
    Senator Hollings. If you would yield, we had told Members 
that there would not be any other witnesses. Otherwise, we 
would welcome Congresswoman Dunn to testify. But we do 
appreciate your presence. Thank you, Senator.
    Senator McCain. Thank you, Mr. Chairman.
    Mr. Evans, I would like to mention that in our meeting I 
said that I would ask you either at the hearing or in writing 
many of the questions, or most of the questions, that I asked 
your predecessor Secretary Daley. I would like to get through a 
couple of these with the time that I have.
    In the pre-hearing questionnaire you filled out for the 
Committee, you were asked whether you or any business in which 
you were an officer had been involved in civil litigation or 
administrative agency proceedings and to provide details. I 
appreciate the candor with which you addressed these questions.
    With respect to the Security National Bank and the American 
Century Corporation cases, please clarify for the Committee 
exactly what your roles were at these companies during the 
times addressed in the litigation.
    Mr. Evans. Thank you, Senator. Out of utmost caution, I 
responded to that question in the affirmative because while I 
was not an officer of those entities----
    Senator McCain. I think you need to pull the microphone a 
little closer.
    Mr. Evans. Sorry, sorry. The question asked ``were you an 
officer.'' I actually was not an officer, but I felt like I was 
close enough to those situations that I should respond to them. 
Security National Bank was a young startup bank in the early 
1980s that was one of the many banks that did fail in the 1980s 
in Texas. I was on the board from a period of 1981 to 1985.
    Subsequent to resigning from the board, in 1987 a lawsuit 
was brought against the bank. All the board members were named 
in that lawsuit. I was one of those names, although I was not 
serving on the board at the time. As the lawsuit progressed, my 
name was, in fact, dropped from that lawsuit. So it was through 
a civil litigation action in a bank that I was named later 
dropped from that suit. But no claims or charges were brought 
against me personally.
    In the American Century situation, that was a savings and 
loan, some 48 of the 50 largest savings and loans in the State 
of Texas failed during that period. American Century--again out 
of kind of utmost caution--American Century was a holding 
company of a savings and loan. And I was not actually on the 
board of the savings and loan that failed. I was on the board 
of the holding company.
    But there was some agency administrative action taken 
against the savings and loan. I was not named in that, but I 
felt like I was close enough to it where I should mention it. 
Again, I was not an officer in the savings and loan. I was not 
actually a director of the savings and loan itself. But I was a 
director of the holding company of the savings and loan.
    But what it did allow me to do is see the collapse of an 
industry up close and personal. I mean, I saw the collapse of 
the financial industry along with the oil and gas industry and 
others up close and personal.
    But I wanted to respond to those that I was close to those 
situations, even though, again, not an officer, no action was 
ever actually taken against me personally.
    Senator McCain. One of your responses to the pre-hearing 
questionnaire states that Tom Brown, Incorporated has been 
involved in various State and Federal administrative agency 
proceedings in the normal course of this business. Could you 
clarify what proceedings Tom Brown, Incorporated was involved 
in and their disposition? And did any of these proceedings 
involve damages or civil penalties paid to the government or to 
third parties and your involvement there.
    Mr. Evans. Senator, I am not aware of any civil penalties, 
any damages that were paid in any proceedings that the company 
was involved in over the last 25 years, the time period that I 
been employed there, the last 21 years an officer there. We 
have ongoing activities with the BLM, with the Federal Energy 
Regulatory Commission to mention a couple.
    What I think I would like to do, if it is OK with you, is 
just submit to the full Committee in writing a full list of all 
of those ongoing activities that we had with various Federal 
agencies as opposed to trying to enumerate them right now.
    Senator McCain. Thank you. I think that would be fine.
    Mr. Evans. OK. *
---------------------------------------------------------------------------
    * Witness did not provide a response.
---------------------------------------------------------------------------
    Senator McCain. There have been numerous reports in the 
past that the Department of Commerce trade missions have 
involved explicit and implicit fundraising activities or 
requests.
    There have also been allegations that there may have 
existed a quid pro quo involving campaign contributions in 
return for being involved in or invited on such missions.
    Without passing judgment on the veracity of these reports, 
I would like to know what actions you intend to take to ensure 
that such activity does not occur in the future. And by the 
way, I emphasize I applaud your predecessor in his efforts in 
this area. Would you for the record submit to this Committee no 
later than 30 days from now in writing your plan to ensure that 
electoral politics do not play a role in the Department of 
Commerce programs and trade missions?
    Mr. Evans. Senator, I will absolutely submit that in 
writing to you within 30 days. Let me tell you that I have had 
occasion to meet with Secretary Daley. I have discussed with 
him in some detail the procedure that is in place now as to the 
selection of individuals, companies, to participate in trade 
missions. I am comfortable with the plan, the procedure, the 
methodology which they now use there as I understand it. *
---------------------------------------------------------------------------
    * Witness did not provide a response.
---------------------------------------------------------------------------
    I have not seen it in writing myself yet. But the way, that 
it has been explained to me, it is basically career people who 
are making the decisions as to who participates on the trade 
missions. And the political appointees have been taken out of 
it. I think that is appropriate.
    But I would just say to amplify on that a little bit, I am 
not the one that is confused at all about service and public 
trust. And that is something that, every decision I made will 
go through that screen. It will go through a screen of is this 
decision being made in the best interest of the American people 
and the best--the long-term interest of America and for the 
general well-being of this country.
    And so that is how all of my decisions will be made. But I 
will be happy to submit to you within the next 30 days a 
detailed plan of how those trade commissions will be selected.
    Senator Hollings. Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman.
    Mr. Evans, we passed the PNTR bill last year, but many of 
our Members were very concerned about the lapses in export 
technology restrictions and the potential proliferation of 
nuclear and chemical weapons that are being observed in China.
    I want to just ask you a general question about what you 
think should be the parameters of any kind of normal trade 
agreements about technology transfers, and if you have had a 
chance yet to think about how you might address this with the 
Department of Defense and the Department of State and the U.S. 
Trade Representative and all of those who would be involved in 
our export relations.
    Mr. Evans. Thank you, Senator. And thank you again for 
those kind remarks earlier. What I can say to you at this point 
is I understand how sensitive this issue is, how critical this 
issue is. I know President-elect Bush in the course of the 
campaign talked about this specific issue and it was his 
suggestion that a President's Technology Export Council be 
considered or be developed so that you did have the right 
people sitting around the table making decisions as to whether 
or not we should allow certain technology to be exported.
    And so, I would say to you that it is something that I will 
give high priority to, to make sure that we will look at this 
President's Technology Export Council to see if that is an 
appropriate way to bring the interagency input or minds to the 
decision of making the appropriate decision as to whether or 
not this particular export item would be qualified as a 
commercial civilian use. Or could it be of military use?
    And certainly, if it is, when making the decision whether 
it would be State or Defense or whoever, say this could be 
indeed of military use, I think the Council would make the 
appropriate decision.
    But I think, you know, I can say I know it is a very, very 
sensitive important issue, one that needs focus and I will give 
it focus.
    Senator Hutchison. Well, I appreciate the priority that you 
are putting on it and particularly that you would work with all 
of the others involved to try to set a policy that everyone has 
a part in developing and then letting everyone know what that 
policy is.
    So it is very important to many of us and I am pleased that 
it is to you as well.
    The only other comment that I would make, and I think that 
you have seen the diversity of issues with which you are going 
to have to deal from the opening statements of Members. I would 
just say that I think the President-elect's focus on an energy 
policy in the very near term is well placed. And I hope that 
you as Secretary of Commerce and someone who understands this 
business will be helpful in formulating an energy policy that 
not only is good for the short-term and the help that is needed 
in the short-term to stabilize prices, but also for the long 
term. We must have conservation and production in our own 
country if we are going to control the stability of our own oil 
resources.
    So I hope that with the Secretary of Energy, with the 
Secretary of Interior and with the President-elect, you will be 
a part of a process that will give us an energy policy really 
for the first time in this country that will value all of those 
elements and put us on the right course for having better 
control of our own destiny as it relates to energy. And with 
that, I will just say that you know I am going to support you 
and I am very pleased that you are here. Thank you.
    Mr. Evans. Thank you, Senator.
    Senator Hollings. Very good.
    Senator Kerry.
    Senator Kerry. Thank you, Mr. Chairman.
    Mr. Evans, as I mentioned in my opening, I have that 
concern about the census. I would like to pursue that with you 
a little bit if I can.
    Mr. Evans. You bet.
    Senator Kerry. I mentioned, this has really been a problem 
since the 1940s. And I think in the 1990 census, I mentioned 
the 13 million people. Among those were about an undercount of 
approximately 8.4 million Hispanics, Asians and blacks. And 
there was an overcount of some 4.4 million, mostly of affluent 
whites.
    The sampling back then found that the decennial census 
undercounted Native Americans living on reservations at a rate 
of 15 times that of whites. And it also undercounted Latinos 
and blacks at a rate of 6 to 7 times the rate of whites, and 
Asians at a rate of 3 times that of whites.
    Now, the experts in the Census Bureau have determined that 
a statistical sampling process is a viable, scientifically 
sound method to ensure that those counts are accurate, and that 
that would provide us with a single uniform standard by which 
we can count accurately our fellow Americans.
    I would like to know if the professionals in the Department 
were to recommend to you as Commerce Secretary--and we do not 
know this yet--but if they were to come to you and say, Mr. 
Secretary, there is a bad undercount here and we have 
determined based on this scientific methodology that we need to 
rectify that so that Americans are properly represented, your 
predecessor Mr. Mineta has, in fact, left in place a process 
that will allow them to do that. Will you honor what Mr. Mineta 
has put in place and, in fact, follow the professional 
recommendation?
    Mr. Evans. Senator, of course, I have to wait and see what 
the professionals' recommendation is. As you mentioned in your 
opening statement, the experts are still at work. They are 
still going through the data. I know the Director made the 
statement just a few days ago that their work continues. He 
cannot yet say whether or not--how accurate the count is or 
what the undercount or overcount is.
    I can tell you a couple of things. One is that I am an 
engineer, scientist, by training. I like the facts. I like 
accuracy. And so I will look forward to seeing what the facts 
are and just the exact nature of the recommendation that might 
come to my desk. It is also though been called to my attention 
that maybe this decision--and I am not sure exactly what the 
process is yet--but it has been called to my attention that 
this decision has been delegated to the Director of Census and 
will not come across my desk.
    So I am not yet clear as to what authority I will have or 
will not have quite frankly. I read a briefing paper I know 
just a few days ago that said as of November 6, the delegation 
of responsibility had been delegated to the Director of the 
Census or whoever the Acting Director was at the time.
    So I am still a little unclear as to what kind of authority 
I will have when the Bureau of Census and their experts reaches 
whatever conclusions they might have.
    The only other thing I might add, I would note that what 
has been said so far is the professionals are saying that it is 
the most accurate count we have had so far in any census that 
we have ever conducted. And I guess we spent some $60 billion 
or so getting to this point. So it should be the most accurate 
count. Does that mean that is good enough? I am not sure yet. 
We will just have to see what the experts say.
    Senator Kerry. Well, fair enough. I think that you are 
accurate in saying that it has been delegated to the Census 
Bureau. What I and others are concerned about is that it is 
left to professionals, that politics does not enter into it so 
that some recourse is sought that does not respect the rule 
that is in place. I mean, is there any reason that you would 
see as you approach this job that would motivate you to suggest 
that you would not leave it to the Census Bureau?
    Mr. Evans. Again, Senator, I just have not had a full 
review on the total issue yet. Obviously, it is a very 
sensitive issue. It is at the top of the list. This information 
is going to become available within the next month-and-a-half 
or so. I think we are due to deliver the counts to the States 
in the spring. So I know it is an issue that is on everybody's 
mind. It is certainly on my mind--exactly what action we will 
take or will not take.
    Senator Kerry. Would you as a matter of your confirmation 
today guarantee to the Committee that if there were some reason 
that you thought that the rule Mr. Mineta put in place should 
not be honored that you would come back to the Committee and 
explain to the Committee in an open session precisely what the 
rationale for changing that might be?
    Mr. Evans. You can be assured that I will be very open and 
very straightforward with this Committee. And anytime you would 
like for me to come before this Committee, I will be delighted 
to do that.
    Senator Kerry. Mr. Evans, let me also ask you about another 
subject of enormous concern. Last year at the World Economic 
Forum, which is a gathering of significant business and 
corporate interests from around the globe, a poll was taken of 
the leading businesspeople there.
    And overwhelmingly, these corporate chiefs from around the 
planet agreed that one of the most serious issues, the most 
serious issue, that they felt they faced in the long-term was 
the problem of global warming. People were significantly 
surprised by that sort of consensus.
    Paul O'Neil, who will be our new Treasury Secretary, has 
been a leader, in fact, among the corporate community in 
leading his company to proactively take steps to deal with this 
issue.
    Your budget, as Senator Inouye mentioned, 51 percent of it 
goes to NOAA. And NOAA is our most important research entity, 
most important entity for climate change knowledge, science. 
Could you share with the Committee your perception of this 
issue at this time? And I wonder if you are familiar with the 
IPCC climate assessment and what your commitment would be with 
respect to that issue and the leadership role the Commerce 
Department plays in it?
    Mr. Evans. Right. Senator, what I first and foremost would 
say to you is that I am totally committed to the continuation 
of an active research of this specific issue. I spent a fair 
amount of time talking to Secretary Daley about this issue. His 
pride in the scientists that we have, or in the Department of 
Commerce studying this particular issue. I think it was 
Secretary Daley mentioned to me that he felt like he had one 
of--maybe the only Nobel Prize winner inside government, a guy 
in his department as one of the key scientists researching 
these very important issues.
    So as I expressed to you in our private meeting, this is 
something that I am very sensitive to. Have I had a chance to 
be fully briefed on the issue? No, I have not. Is it something 
that this world ought to be concerned about? You bet it is. Am 
I one that will be high on that list of concern? I absolutely 
am.
    And so I would say that it is something that I will stay 
focused on, stay committed to. As I said in my opening remarks, 
our kind of understanding of the global climate change that 
could be taking place will be very important to the kind of 
decisions, the kind of policy decisions, that we quite frankly 
make.
    Senator Kerry. The red light is on and I do not want to 
abuse the process. But do you accept the science to date? Do 
you accept the science of the IPCC?
    Mr. Evans. Senator, I would have to tell you I have not 
reviewed that in detail. And I know there is science on both 
sides of it. I know that. But I just would have to say to you 
that it is just not something that I have been briefed on, that 
I have reviewed yet. But I would absolutely say to you that it 
is an issue that I am very sensitive to. And I appreciate your 
sensitivity to it. And I look forward in getting back to you 
when I think I have a more kind of educated understanding if 
you will.
    Senator Kerry. Thank you, Mr. Evans.
    Thank you, Mr. Chairman.
    Senator Hollings. On the census, Mr. Evans, it is the 
Committee's hope that you will support President-elect Bush's 
supporting sampling and opposing hand counts.
    Senator Burns.
    Senator Burns. Thank you, Mr. Chairman.
    In your position you are going into, Mr. Evans, now, this 
morning we had the opportunity to visit with the appointee for 
the Secretary of Agriculture. And food safety, of course, is 
always an issue with the Department of Agriculture and other 
departments. And we always see government as it works.
    You know, we have the most inefficient government in the 
world, but it is designed that way. When you have got a free 
government and the flow of free ideas. But we also you are 
coming into a town where there continues to be turf wars and 
battles. And with you coming in, what happens in the Department 
of Transportation and what happens in the Department of Energy 
and what happens in the Department of Agriculture effects a lot 
of things that happens in the Department of Commerce.
    In other words, you have the ability to oversee or to look 
on what the policies of those agencies are, and how it effects 
our commerce, our movement of trade, our everyday life.
    And I would hope that--and this is just a statement and you 
can respond if you want to. I do not know how you set it up, 
but I would certainly like to see some sort of a little office 
off in the corner that is in charge of communicating or 
nourishing a relationship between departments because of these 
very sensitive areas.
    So we know what our challenges are in agriculture. I think 
the same challenges in order to make government work, we have 
to nourish those relationships between communications of what 
we do over in the Department of Labor. Now, what we do in the 
Department of Energy and Transportation does effect our ability 
to foster economic opportunities for every American in this 
country.
    So I think that is very, very important. How you do that, 
that is up to you.
    Mr. Evans. Right.
    Senator Burns. However you feel comfortable in doing that. 
I would certainly suggest that. I am planning on supporting 
you. I like your attitude. Your attitude is right out of the 
oil patch and I can deal with that. Because we have had some 
experience about that up in my home State of Montana.
    So thanks again for your public service. And do you want to 
respond to that communication?
    And thank you, Mr. Chairman.
    Mr. Evans. The only thing I would say is I have had the 
experience of running a large system of institutions, higher 
education along with health science centers. And I understand 
the importance of communicating across boundaries.
    And I was thinking last night, in fact, about the 
importance of telecommunications and technology with respect to 
education and how important I think it is even for the Commerce 
Department to be talking maybe to the Department of Education 
so they understand what kind of telecommunication and 
technology might be available.
    So that just carries further to your point that I think 
there is all kinds of reasons for there to be an active dialog 
between all of the important departments of the Executive 
Branch of government. And there is a lot of intragency, inter-
department activity, dialog, discussion and opportunities to 
share when resources can support and help in other departments. 
Anyway, I appreciate your comment. I hear where you are coming 
from, and I will hopefully be one that is considered to be very 
active in talking to all the departments. Thank you.
    Senator Burns. Thank you, Mr. Chairman.
    Senator Hollings. Senator Rockefeller.
    Senator Rockefeller. Thank you, Mr. Chairman.
    Mr. Evans, steel again. From a philosophical point of view 
as we discussed, it is an interesting situation. You used the 
word to promote industry in describing your mission. And that 
has a broad meaning.
    When you are discussing the steel industry and the enormous 
import surges which have taken place in the last several years 
and which are still at record highs. I mean, there has really 
been no diminution.
    What you find is that the State Department, the National 
Economic Council, the U.S. trade representative, the Export/
Import Bank, which I will explain in a moment, and others, 
Treasury, notably Treasury, always take the macroeconomic world 
view. And there really is nobody in a government agency, who 
runs a government agency, who can promote American industry in 
the sense of making sure that it survives other than the 
Commerce Department. That is just the way it works.
    Nobody stands up for steel so to speak except the Commerce 
Department if it so chooses. Your predecessors, both of them, 
wanted to and did, but were undercut by the Clinton 
Administration which declined to because of the influence of 
Treasury and others in the second term international legacy 
pursuit. We discussed that. And I told you that it had just a 
devastating effect not only less importantly on me, but on the 
steelworkers in my State.
    So the Export/Import Bank--and your deputy secretary serves 
on that--has just given $18 million to China Steel Construction 
for a new plant which they are putting $2 to $4 billion in. And 
it is a matter of absolute outrage to the people of my State--
and should be to the people of any State where steel is 
produced, in a major way. And that is at least 16 States which 
is one of our problems. It does not come up to half of the 
Congress or the Senate.
    But you look at our steel industry. And from a private 
enterprise point of view, it ought to be a model to you. And 
you have served in it. ARCO or Alcoa I think you told me.
    Mr. Evans. Armco.
    Senator Rockefeller. Armco, I am sorry. So you know the 
steel industry. And you know that unlike any other steel 
industry in the world, not one single dime of Federal money has 
gone into the productivity increases, the remodeling, the 
complete--whether it is environmental, furnaces, whatever, it 
has all been money which has been borrowed or taken from 
profits and which can no longer be borrowed from banks. Because 
banks will not make those loans.
    I indicated to you in my opening statement that about half 
of our steel industry, if two more go under, which I think they 
are going to, about half will be in bankruptcy. Geneva came out 
of this morning and I am happy for that. But when Bethlehem is 
trading at about $1 stock, one really has to stand back and say 
what is going on here?
    Now, Italy produces steel--and substitute them for any 
other nation in the world--they have not made a profit in a 
generation or more. Whatever the difference is at the end of 
the year, the government makes up that difference. So they do 
not need to make a profit.
    Now, I would think from an entrepreneurial perspective, 
that would be really offensive. It is really offensive to us in 
West Virginia. And hence, the whole concept of making sure that 
import surges and anti-dumping circumvention laws are enforced. 
I mean, people say that if you say something like that, you are 
a protectionist or that you are doing something which is 
regressive.
    I would posit this to you. We import about two-thirds of 
the oil that we use in this country, perhaps more. If the 
United States were to make a decision, an inadvertent decision, 
by not making other decisions, to say, ``Oh, well, the Middle 
East has a lot of oil. Let us just import all of it.'' We would 
never do that. We would never do that.
    But in effect, that is what is happening in steel. We 
import an enormous percentage of what we use in this country 
now because it is dumped at lower prices than the cost of 
production in the home country. And as I indicated to you 
yesterday, Weirton Steel, which when we made it into an ESOP in 
1982 had 13,000 people working for it. It now has 4,000. 
Wheeling Pittsburgh Steel is bankrupt. If you want to ask Mr. 
Gore why he did not carry the State of West Virginia, a large 
part of it would come around to that and the effect on the coal 
industry which feeds the steel industry in West Virginia.
    Now, I do not want to inject politics into that, but it is 
a very graphic example of how angry our people are at the 
Export/Import Bank loan and the way steel import surges and the 
steel prices was not dealt with by the present administration, 
the Clinton Administration.
    So, understand that my angst is very real. I go back to 
what Vice Present-elect Cheney said, that we have to have a 
steel industry to have a defense industry. You cannot go to war 
in the Gulf or any other place and say, ``Korea, could you lend 
us some steel so we can make some more whatever kind of 
armaments?''
    So, this is a very special type of industry. What we have 
done is we have tended to go to trade cases, individually-
brought trade cases. They do not work well. They take forever. 
They are just litigated to death. And the steel industry 
disappears.
    We could lose our steel industry, Mr. Evans. I say that in 
all seriousness.
    Now, what I would ask you is two things. One, that you 
would in a sense make a commitment that you recognize that in 
the promotion of American industry that that also involves the 
promotion of keeping, as Chairman Hollings has indicated, that 
manufacturing base of which there can be no more important 
component than steel.
    Second, that you would agree with me that if this industry 
is, in fact, going to be saved, if we are not going to simply 
lose all of it, that the government--and this is always a 
difficult decision. And it would be more difficult, I think, 
for a Republican government. On the other hand, clearly it did 
not work with a Democratic government--has to somehow intervene 
to be helpful. And that you bear some of that responsibility.
    There is something called Section 201, which Chairman 
Hollings knows very well. It is a very fair process. It 
involves the International Trade Commission. It involves 
countries only which are dumping steel illegally. That is the 
1974 Trade Act. It is very straight and clear. It is against 
the law.
    The present administration decided to ignore it. And I hope 
that you would say to me that you would be willing to consider 
and perhaps promote not just sort of a generalized intervention 
into this problem of your own intellect and energy, but also 
take a very clear look at the Section 201 approach which would 
do more to stop import surges than anything else I can think 
of.
    Mr. Evans. Thank you, Senator. You know in our discussion 
yesterday, I talked a little bit about my background. I think 
maybe one of the most important jobs I have had in my career 
was working next to the furnace at Armco Steel in the ship 
channel in Houston, Texas. So understanding that industry and 
the people in that industry and the importance really, I think, 
of that industry to this country.
    There has been a lot of talk over the last 5 to 10 years 
about this economy moving from an industrial-based economy to a 
knowledge-based economy. I am not one that believes that that 
means you turn your back on the industrial based economy or the 
manufacturing base of this country and the manufacturing part 
of this base of this economy.
    I am disturbed when I hear that our laws are not being 
enforced. I am disturbed when I hear that our agreements, our 
trade agreements, are not being complied with. I am disturbed 
when I hear that the big trade deficit that we have with China 
and, you know, we have got six people, seven people, that are 
watching that.
    So what I will pledge to you is I will look at Section 201 
and the implication of it as to the steel imports. But in a 
more general kind of response to your comments, what I would 
say to this Committee is that compliance is going to be an 
absolute with me.
    Now, I do not know how you can carry on--there is nothing 
that will dispirit the American entrepreneur and worker--there 
is nothing that will dispirit them anything more than thinking 
that they are not on a level playing field. You know, we do not 
mind competition. Competition is OK. But it is not OK if it is 
not a level playing field. And my sense is there are some areas 
going on out there in the world that it is not a level playing 
field.
    So, it is something that I have heard a lot about the last 
48 hours. I look forward to working with you in particular on 
steel, because I know it is of great concern to you. You are 
exactly right. It not only impacts the steel industry. It 
impacts the very national security of this country. It impacts 
the coal industry and those workers.
    So you have my pledge to work with you, have an active 
dialog with you on this issue. And as I have a chance to review 
it even further, I will look forward to talking to you about 
it.
    Senator Rockefeller. Thank you, Mr. Evans.
    Thank you, Mr. Chairman.
    Senator Hollings. Very good.
    Senator Cleland.
    Senator Cleland. Thank you very much, Mr. Chairman.
    Thank you very much, Mr. Evans, for your insightful 
comments. Let me just mention a few buzz words here. One of the 
things about commerce in the couple of years I have been on the 
Commerce Committee and certainly the 4 years I have been in the 
Senate, that one has to realize as we move into the 21st 
century is the impact of e-commerce, the impact of technology 
on our society, the need for technological workers.
    In my own interest, I mentioned the products from my State 
that we sought to export, that we seek to find markets for 
abroad.
    In all honesty, I find it fascinating that our country, our 
economy, has to import a lot of technological workers from 
abroad to fill the 3- to 4-hundred-thousand high technology 
jobs out there that are going lacking for workers.
    Which brings us to more maybe your role as Chairman of the 
Board of Regents of a great university system and that maybe 
the key to economic growth and commerce, particularly e-
commerce, is growing our own high tech workers and providing 
the kind of connectivity to the not only global marketplace, 
but through the Internet for all of our workers.
    If President-elect Bush's goal is to leave no person 
behind, no community behind, is really to be fulfilled, which 
is our basic wish, it is obvious if you look at America, and 
certainly my State, there are lot of people that are not 
connected.
    I held a forum in South Georgia, rural Georgia, on the 
whole point of high tech workers and whether or not rural 
America, rural Georgia, was connected, particularly via the 
Internet. I found it interesting that in urban America, and 
even the urban poor, are more connected via the Internet than 
shall we say anyone, wealthy or poor, in rural America or in 
rural Georgia.
    In the Commerce Department, there is something called the 
Technology Opportunities Program, TOP, the TOP program, which 
provides infrastructure and Internet access to disadvantaged 
communities. And I think basically we are just talking 
basically rural. Not particularly black, not particularly 
Hispanic, not particularly white or particularly wealthy or 
economically disadvantaged. But I think it is just basically 
rural. It is hard to connect rural America with the world. 
Fiber-optic cable is required. All kinds of Internet access 
devices are required. And the cost seems to be higher in rural 
America for that connectivity than if you were just living in 
say a suburban part--urban part of America.
    Well, the point being this forum highlighted for me this 
little-known program that happens to be in your agency. I would 
just like to know or to ask you to take a look at that as maybe 
an opportunity through that program to facilitate connectivity. 
Leave no community behind, no individual behind. And through 
continued infrastructure and Internet access grants or help to 
disadvantaged communities through these TOP grants. In other 
words, continue to boost the American economy or the chance to 
participate in the global marketplace.
    As you well know, some rural or poor or disabled individual 
sitting at home can through the Internet market goods abroad 
and in effect have a job, have a sales effort and so forth.
    So I thought I would just bring the TOP program, sir, to 
your attention. Technology Opportunities Program which provides 
infrastructure and Internet access to the disadvantaged 
communities around our country. My attention was called to it 
when I went into the rural portions of my State. And I will be 
looking at that as a way to hopefully expand economic 
development, e-commerce and access to the Internet from their 
point of view.
    I thought I would mention that to you, just highlight that 
and underscore that. I do not have any further questions, but I 
did have that one observation. And in this whole world of e-
commerce and the global marketplace that there is more and more 
information to suggest that a certain portion of our culture, 
our economy, is being left behind. And that is rural America. 
And to the extent to which we could boost their chances for 
connectivity is the extent to which that rising tide could lift 
those boats too. Any comment or reaction?
    Mr. Evans. Thank you, Senator. I appreciate you calling 
that to my attention. Senator Rockefeller also called that 
program, that worthwhile program, to my attention. I live in a 
big State, as you know. And we have had big concerns in our 
State about making sure that we leave no area behind.
    So I know how important the issue is. I will give it my 
attention. I am excited about some of the 3G technology that is 
coming along that may help us penetrate these rural areas in a 
more effective way, but it has to happen. I mean, we do not 
leave anybody behind in this country.
    And I think that I am in a unique position, if I am 
fortunate enough to be confirmed, to help with this and also 
let business understand how important it is for their 
responsibility to make sure that we touch all of the 
communities in this country.
    So I am sure I will have an opportunity to talk to many 
business leaders in the technology area and the 
telecommunications area. And one of the issues that will be on 
my mind when I talk to them is making sure programs are being 
developed that reach every citizen in this great land.
    Senator Cleland. Thank you. And I appreciate your insight 
too into how both the private sector and the academic sector, 
with maybe a little help from government as a catalyst, maybe 
can with all three partners in effect working together, a lot 
of good things can happen.
    Mr. Evans. Well, it is probably one of the things I am most 
proud of as my service on the board of the University of Texas 
system. I spent a lot of energy and time talking to business 
leaders trying to impress upon them their responsibility to 
give back to this great country and do it in a way that also 
helps them though in developing the labor force that they need.
    So, we have had a terrific response at our system. The 
grants and the research opportunities have increased 
dramatically. I also checked and then you talked about it in 
terms of a partnership that actually the University of Texas 
system has participated in some of these programs from the 
Department of Commerce while on my watch. And it has been 
mostly our border universities like the University of Texas El 
Paso, Brownsville, Pan American.
    But they participated in some of these very worthwhile 
programs to bring partnerships together and resources together 
to develop some of this technology and reach these areas that 
did need to be reached. So I thank you.
    Senator Cleland. Thank you very much, Mr. Evans.
    Thank you very much, Mr. Chairman.
    Senator Hollings. Thank you.
    Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Mr. Chairman.
    Mr. Evans, thank you yesterday for the chance to visit and 
particularly your desire to work in a bipartisan way. As you 
and I discussed, I think particularly with Senator Hollings and 
Senator McCain's leadership, this Committee has really tried to 
take the lead in terms of writing the rules for the new 
economy. It has been our judgment that a lot of what applied to 
the economy where people got up about 5 o'clock in the morning 
and ate 10,000 calories and then did physical labor, a lot of 
those principles do not exactly apply to the Internet and what 
Senator Cleland appropriately focused on.
    We have two big issues that your agency will have to play 
an activist role on coming up and I would just like to get your 
general feelings. At the end of October of this year, the 
Internet Tax Freedom Act will expire. And there are many of us 
who think it is extremely important to extend it for another 5 
years, extend the moratorium on discriminatory taxes on 
electronic commerce and would be willing in return to give the 
mayors and the governors that have been concerned about the 
impact on the revenue base a chance to have their proposals 
considered as well, with the Congress voting on whether or not 
to let them go into place.
    What would be--and I know this is new to you--what would be 
your general reaction to a bipartisan proposal that would come 
from this Committee with those two components, extending the 
moratorium and discriminatory taxes on electronic commerce for 
another 5 years, and in return making sure that the mayors and 
the governors got a fair shake to have the Congress consider 
and vote on any proposal they would have with respect to sales 
tax and other local taxes?
    Mr. Evans. On Internet taxation, President-elect Bush's 
position has been, as we discussed yesterday, that he is 
opposed to any Internet access tax. And he supported the 
moratorium on Internet taxation of commercial goods. And that 
moratorium expires later on this year.
    Obviously, that is going to be on all of our minds as we 
approach that date. We all understand the growing role that the 
Internet is playing in our society today in terms of delivering 
goods and services to our citizens.
    I am one that we are all sensitive though to the impact it 
has on other businesses that establish proprietors. We are 
sensitive to what it might mean to the tax base as you are 
suggesting, the cities and the counties and the States. And so 
those factors needs to be considered.
    What other factors need to be considered I am not certain. 
Because it is not something I have spent a lot of time really 
reviewing or studying or analyzing, but it is obviously 
something that I will be spending some time on, I look forward 
to that.
    I think your proposal of bringing the mayors and the 
governors into the mix makes imminent sense. They are the ones 
that are being impacted on the local level. They have got their 
revenue projections to worry about and think about and where 
their revenue will come from to provide the services of the 
citizens of their counties or cities or States needs.
    So, the important thing is to get all of the right 
constituents to the table to talk about this very important 
issue. And also kind of a general understanding with where 
Commerce is going in the years ahead.
    Senator Wyden. Well, I hope you will get us a proposal on 
this promptly, because both Senator McCain and Senator Hollings 
spent a lot of time in discussions at the end of last year.
    We feel we are pretty close and have something that would 
be important for the entrepreneurs in the new economy that hold 
so much promise and at the same time would be fair to the 
mayors and the governors by saying if you have got a proposal, 
we will consider it. We are not going to allow for a new tax 
hike without a vote, but we will consider it.
    Along the same lines, I would like to ask you about privacy 
as well. Because in your emphasis in terms of free markets and 
free enterprise, the key, of course, to free enterprise is for 
citizens to have confidence that they are being treated fairly. 
And as you know, concerns today about privacy are enormous.
    Senator Hollings has a good bill. Senator McCain has been 
part of an effort again to come up with a bipartisan approach. 
We feel that you obviously need to get the consent of the 
individual and they ought to have access to their records and 
provisions for security and enforcement. And again, I know 
because this is all new to you, I would just like this morning 
to have you outline your general feelings about how you are 
going to approach this privacy issue.
    Because I think Fritz Hollings and John McCain have done 
very good work on these new economy issues over the last year 
or so. And with your leadership, we could on both of these 
issues--the Internet Tax Freedom bill and the privacy issue--we 
could get out of this Committee bipartisan legislation and put 
something on the President's desk that he would feel good about 
signing. And since the red light is on, why do you not just 
give me your feelings about privacy?
    Mr. Evans. I think my general approach will be to work with 
Chairman Hollings and Chairman McCain and work with them.
    Senator Wyden. That is generally good.
    Mr. Evans. And yourself, Senator. Look, like I said in my 
opening comments, I was very impressed by the bipartisan spirit 
of this Committee as I went and visited each and every Senator 
except Senator Inouye I have not had the chance to meet yet. 
Privacy is a very, very important issue. It needs to be 
addressed. We need to make a decision. We should not continue 
to procrastinate, put it off.
    So, it is an issue that I can see a lot of work already has 
been done on it. I would just like to get myself up to speed 
and be one of those that helps push it forward. Just like I 
think and respond to your earlier comments about taxation, this 
is not something that we should wait until October, September, 
whenever, to talk about it. We need to get our arms around it 
now and begin the discussion. We should not wait until the last 
minute to make a decision.
    So, anyway, generally I look forward to working with you on 
these important issues to you. They are important to me and 
other distinguished Senators on this Committee. And hopefully, 
we can come to some quick conclusions.
    Senator Hollings. Very good.
    Senator Brownback.

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Thank you, Mr. Chairman. I have a 
statement I would like to submit for the record as well.
    Senator Hollings. No objection.
    [The prepared statement of Senator Brownback follows:]
               Prepared Statement of Hon. Sam Brownback, 
                        U.S. Senator from Kansas
    Mr. Chairman, I am delighted to welcome Don Evans to Washington and 
to this Committee. Mr. Evans has had a distinguished career in 
business, and he will serve President-elect Bush well as Secretary of 
the Department of Commerce.
    I trust that under Mr. Evans' leadership, the Commerce Department 
will serve as the focal point for fostering job-creation, 
entrepreneurship, export-expansion, and technological innovation. In 
particular, there are several issues which I hope will receive primary 
attention from the Commerce Department during Mr. Evans' tenure.
    First, the administration needs to increase export opportunities 
for America's manufacturers and farmers. I strongly encourage the Bush 
Administration to make the expansion of NAFTA to the entire Western 
Hemisphere a top and immediate priority. From its failure to 
aggressively push for Fast Track to the debacle in Seattle, the Clinton 
Administration missed many opportunities to open more markets for U.S. 
goods and services.
    I hope that the Bush Administration comes to the Hill early to push 
for Fast Track so that our trade negotiators have the tools necessary 
to knock down barriers to U.S. exports. And I hope that the Bush 
Administration embraces free trade as a means of improving not only our 
economy, but the economies of other nations as well.
    Second, the United States is years behind Europe and Japan in terms 
of identifying and allocating spectrum necessary to provide third-
generation wireless services. While the World Radio Conference 
identified several bands that could be used for third-generation 
services, in the United States, two of those bands have incumbents 
occupying the spectrum.
    In the case of the 1710-1885 Megahertz band, the Department of 
Defense and other government agencies currently use most of this band 
for national security and other purposes. It is critical that the 
Commerce Department, through NTIA, determine whether third-generation 
wireless services can coexist in the 1755-1850 band with the incumbent 
government operations. This determination is scheduled to be made by 
July of this year. It is critical that the determination not be 
delayed. Despite the lead that the U.S. currently maintains in the 
Internet and Internet technology, we risk ceding pre-eminence in 
advanced wireless Internet services and technology if we do not make 
the spectrum necessary for third-generation services available in a 
timely manner.
    Finally, Mr. Chairman, I would ask that, as Commerce Secretary, Mr. 
Evans help us ensure that rural areas are not left out of the broadband 
revolution. Broadband services have the potential to change the way we 
communicate, work, learn, and shop. But, while broadband services are 
being deployed in an increasingly rapid manner in urban and densely-
populated suburban areas, rural communities are being left behind.
    The most significant economic development issue that rural areas 
will face in the next 5 years is whether businesses will have access to 
the same high-speed Internet services in rural communities that they 
have in urban and suburban areas. The availability of broadband 
services will be as critical an infrastructure issue as whether a 
community has good access to highways, railroads, and airports.
    Mr. Evans, thank you for appearing before us today. I look forward 
to your speedy confirmation by the Senate.

    Senator Brownback. Mr. Evans, thanks for coming to the 
Committee. You have presented a number of very good answers to 
tough questions. I have got a couple of questions on narrow-
focused industries.
    One is we have got a little caucus called the wireless 
caucus. And it is the industry that is developing around 
wireless communications. Their lead issue that they have right 
now is spectrum and availability of spectrum to go into the 
next generation of wireless services. So that I guess all of us 
can mindlessly be connected all the time anywhere wherever we 
are.
    There is some fear to that I have. I guess when you just 
turn the device off, but be able to have access to it. People 
need more spectrum. That is going to be a major issue for you 
in the department is the allocation of spectrum for this next 
generation of wireless services. I want to raise it to your 
attention. I hope you will be open to providing the necessary 
spectrum so that that next level of connectivity over the 
Internet, wireless, video wireless, a whole series of 
innovations within that industry will move forward. And I would 
invite some of your comments if you would have any on that 
industry.
    Mr. Evans. You bet, Senator. And again, I look forward to 
visiting with you in-depth in the near future. I know how 
important that issue is. I have just quite frankly learned 
about it in the last 48 hours or so. But I understand the issue 
of third-generation technology. I understand that Asia and 
Europe really are out in front of us on this particular type of 
technology. And I understand the limited amount of spectrum 
that we may have to market to auction.
    I understand that a substantial amount of spectrum has 
already spoken for within government. I think that just we need 
to put a lot of emphasis on the management of spectrum and how 
we are going to manage this very, very important resource, not 
in the days ahead, but in the decades ahead. Because this will 
be a very important resource as to how communication, how 
information, flow; how data, video, voice flows around this 
country, and indeed, around the world.
    So, I view it as a very valuable resource that this country 
has. We have to be very, very comfortable when it comes to how 
we are going to auction it, how we are going to manage it. And 
there needs to be a long-term strategic plan as to how it is 
managed and how it is auctioned and not just, OK. We have got 
this much spectrum. Why do we not go auction it this summer and 
see what the highest bidder is?
    So I am sensitive to that issue. I mean, it falls into the 
telecommunications technology area. I know that it is in our 
department. I know that it requires some immediate attention. 
Because we are about to move into a--recommend to the FCC the 
auction of some of the spectrum.
    Senator Brownback. I appreciate your interest and 
sensitivity to it. Because I think that issue is going to 
determine the future of that next generation of wireless 
services. And there is great competition for those spectrums. 
And so it is really going to take some thoughtfulness. Because 
the decisions made today put in place what we can or cannot do 
for the next couple of decades, I think, in this whole 
industry.
    And we need to keep out in front on it. We need to keep 
leading in it. And I think it can add a level of productivity. 
It can add a level of comfort and communication to people that 
we have really only dreamed of in the past. But it is 
available. It is there. But we could also limit it such that we 
will not be able to do it if we do not do it right.
    So I appreciate your interest and your thoughtfulness on 
it, because it is an issue that is out there. And a lot of 
times we spend time looking back on industries that we want to 
try to change. Here is one we can shape going into the future 
and we need to do it right.
    A second one that is somewhat similar is high speed 
Internet access, particularly in our less populated areas in 
the country. We had a hearing in this Committee several months 
ago about access to high speed Internet, and found that in the 
suburban and urban areas, generally really in the suburban 
areas, there was as much as 70 percent penetration of high 
speed Internet access. And in the rural areas, it was less than 
5 percent access.
    So the ability to download large quantities of material in 
rural areas. or be able to get information as quickly as you 
would want it, is hindered. There are a series of bills that 
have been put forward, some subsidies, some deregulatory, some 
tax incentives, on trying to get more deployment of high speed 
Internet into less populated areas.
    We need your help on this. We do not need a divide across 
the country based on urban and rural. And with your background 
and where you are from, I think you can be sensitive to this. 
This is currently the situation. I would hope you would work 
with us. The approach I am supporting is a deregulatory 
approach toward it, but you would add some real focus and 
effort and intensity to this so the problem does not continue 
to grow and exacerbate and cause difficulty for economic 
activity and other type of activities in rural areas.
    Mr. Evans. I will do that, Senator, absolutely. And I look 
forward to working with you on that issue.
    Mr. Brownback. Thank you. And welcome. You are going to do 
an excellent job as Secretary of Commerce and I look forward to 
working with you.
    Mr. Evans. I appreciate it, Senator. Thank you.
    Senator Hollings. Very good, Mr. Evans.
    The Members to be appointed next week have yet had an 
opportunity to confer or ask questions. Whether or not that 
will require a further hearing, it will be up to our regular 
Chairman. We will have that--I hope--FBI report, ASAC's report, 
within the next 2 weeks. And Chairman McCain will take over. 
Once again, I want to thank him for his leadership. And thank 
you, very, very much for your appearance here today. It is the 
Committee's hope that we can confirm you that first week after 
the inauguration.
    Senator McCain.
    Senator McCain. Senator Hollings, I just want to thank you. 
I look forward to the continued close working relationship 
between our staffs, and I thank you again for holding this 
hearing on a very important position.
    Senator Hollings. The record will stay open for any written 
questions. The Committee will be in recess subject to the call 
of the Chair. Thank you.
    [Whereupon, at 12:05 p.m., the hearing was adjourned.]

                            A P P E N D I X

                Prepared Statement of Hon. Bill Frist, 
                      U.S. Senator from Tennessee
    Thank you, Mr. Chairman. It is a great honor to be returning to the 
U.S. Senate and to the Senate Commerce Committee for the 107th 
Congress. Six years ago yesterday, I was sworn as a new Senator and 
feel privileged that the people of Tennessee have endorsed my return.
    I am most pleased to welcome my friend, Don Evans, to the Commerce 
Committee this morning. President-elect Bush has nominated him to a 
position of great responsibility. The next Secretary of Commerce will 
have a critical role in expanding technology and innovation to enhance 
the United States' international competitiveness. Just as Malcolm 
Baldridge, the father of the American quality revolution proved almost 
two decades ago, the Commerce Secretary can have an extraordinary 
effect on the productivity of American business.
    I applaud President-elect Bush for finding the best nominees for 
his new Cabinet. It is especially clear that this nominee embodies all 
of the attributes and virtue necessary for success. This is truly a 
gentleman who believes in giving back to his community and his nation 
and I am grateful for his willingness to serve.
    Don, now comes the hard part. Winston Churchill quipped before the 
House of Commons that ``I have nothing to offer but my blood, toil, 
tears and sweat.'' As my colleagues on this Committee will attest, 
Washington is a city that demands nothing less. I look forward to your 
quick confirmation and working with you in the years to come.
    Thank you, Mr. Chairman.
                               __________
      Response to Written Questions Submitted by Hon. John McCain 
                           to Donald L. Evans

Census

    Question 1. As you well know, the census, specifically the issue of 
statistical sampling, is controversial. The Supreme Court has ruled 
that the Census Bureau cannot constitutionally use statistical sampling 
for census counting purposes. I support a constitutional census plan 
that accurately counts every person. What means do you plan to use to 
ensure an accurate census count, especially in those locations where 
there have been documented undercounts in the past?
    Answer. To ensure an accurate and constitutional census count, I 
believe Congress and the administration must adequately fund and 
support Census Bureau efforts to increase the participation and 
response rates to the census. I understand that over the past decade, 
the Census Bureau spent over $7 billion to fund the many activities 
leading up to, and carrying out, the 2000 Decennial Census. Current 
Commerce Department officials describe the 2000 Census as the most 
successful census in history, with the lowest undercount ever. Looking 
ahead to the 2010 Census, the apparent success of the 2000 Census 
suggests the need to continue emphasis on use of adequate numbers of 
trained, temporary census workers; public awareness and educational 
campaigns; and other methods to encourage people to respond. Successful 
implementation of the American Community Survey initiative also should 
contribute to an even more accurate count in the 2010 Census.

Foreign Trade Missions/Political Activities

    Question 2. Will you commit to this Committee that in an Evans 
Commerce Department trade mission invitations would be issued on the 
basis of merit and in accordance with clear and objective criteria?
    <bullet> If so, what would you do to ensure that your commitment is 
followed through?
    Answer. As you may be aware, Secretary Daley put in place major 
changes in the way that trade missions are conducted. He has advised me 
that his purpose was to ensure that invitations are based on merit in 
accordance with clear, objective standards. The current policy thus 
requires written criteria for selection of participants, prohibits 
consideration of political activities, and requires selection of 
participants by a majority of career Department personnel. This appears 
to be a sound approach, and I am committed to ensuring that it works 
effectively. I will work with the Office of Inspector General, the 
General Accounting Office, and others to evaluate the effectiveness of 
the current approach and to make further improvements where necessary.
    Question 3. Would you please supply the Committee in writing your 
criteria for selection as a participant in a Department of Commerce-
sponsored trade mission?
    Answer. I will apply the general criteria noted above for selecting 
participants. I understand that additional, specific criteria for 
selection as a participant are also established to meet the goals of 
individual missions. These specific criteria for selection are 
published in the Federal Register for each mission. Because they are 
mission-specific, I cannot provide all of the criteria in advance. I 
also understand that the Office of Inspector General is currently 
engaged in a review of the implementation of the new trade mission 
policy. Until that review is completed, I believe it would be prudent 
to maintain the new system for publishing the criteria for 
participation in specific missions.
    Question 4. At about the time of Secretary Daley's confirmation 
hearing before this Committee, significant allegations had been raised 
that the Commerce Department was being used by certain individuals for 
fundraising purposes. In the past year, at least one allegation has 
surfaced that the former head of the Commerce Department Office of 
Business Liaison sent fundraising letters to foreign trade mission 
participants. I cannot judge the accuracy of this allegation, but it 
disturbs me nonetheless.
    <bullet> Mr. Evans, can you tell me what safeguards you would 
propose to ensure that political activities do not occur in conjunction 
with Commerce Department trade missions?
    Answer. As stated in my response to Question 2, the current 
procedures include specific prohibitions against consideration of 
political activities in the selection process. The Inspector General's 
office is currently looking at implementation of the new procedures, 
and I expect that office to continue periodic reviews to point out 
problems and to ensure compliance.
    Question 5. At his nomination hearing, former Commerce Secretary 
Daley pledged to hold a 30-day ``top to bottom review of the 
procedures, rules, and criteria used to govern'' foreign trade 
missions. Would you pledge today to institute a 30-day review of the 
procedures, rules, and criteria used to govern foreign trade missions 
in order to ensure the integrity of the foreign trade mission selection 
process?
    Answer. Given the institution of new procedures since Secretary 
Daley conducted his review, a better approach is to obtain the results 
of the Office of Inspector General's on-going work in this area before 
instituting another 30-day review of the type previously conducted. I 
will then review the new policy and procedures put in place by 
Secretary Daley and refine and improve the policy as needed to ensure 
the integrity of the foreign trade mission process.
    Question 6. There has been a suggestion made that the Department 
could institute a voluntary system where individuals and the firms or 
entities they represent could be asked to agree not to make any 
political contributions during a period beginning when they are invited 
to participate in a foreign trade mission and ending 6 months after the 
mission is completed. Please comment on this proposal, noting with 
specificity why you would or would not support it. If you do not 
support it, please outline any suggestions you have regarding this 
subject.
    Answer. Should I be confirmed as Secretary of Commerce, I will 
consider all proposals for improving the selection of trade mission 
participants. I am committed to ensuring that politics do not enter 
into the decisionmaking process, and I will strive to isolate the 
selection criteria and decisionmaking process from all political 
influence. I would not, however, favor a policy of asking candidates to 
refrain from making political contributions. Potential invitees who 
satisfy objective, relevant selection criteria should be treated no 
differently than other candidates merely because of their independent 
political activities, including their political contributions. Such a 
policy could effectively exclude many qualified individuals or their 
companies from participating, to the detriment of the trade mission 
program.
    Question 7. Would you agree to a periodic review of the 
Department's foreign trade mission selection process by either the 
Inspector General of the Department of Commerce or the General 
Accounting Office to ensure that the Department's foreign trade mission 
procedures, rules, and criteria are appropriate, and that the 
Department is following them?
    Answer. Yes, please see answer to Question 4.
    Question 8. You are probably aware of the ongoing litigation 
regarding Freedom of Information Act requests concerning Department of 
Commerce foreign trade missions. The foreign trade mission litigation 
appears to me to be an unfortunate and easily avoidable instance of 
administration stonewalling in the face of these document requests. I 
would request that you commit that in all instances the Department of 
Commerce be as forthcoming as possible in response to Commerce 
Committee requests for documents, as well any other legal requests made 
to the Department.
    Answer. I understand that current Department policy requires 
recordkeeping procedures and automatic public availability of documents 
without Freedom of Information Act requests. Until further review, I 
believe this is the appropriate policy. If confirmed, I will be as 
forthcoming as possible in response to the Committee's requires for 
documents, as well as any other legal requests of the Department.
    Question 9. In a sworn affidavit, a Commerce Department career 
civil servant who had supervisory authority over all Freedom of 
Information Act matters stated that the Office of the General Counsel 
staff ``improperly assumed and exercised the final authority to approve 
or disapprove the release of documents responsive to FOIA requests 
submitted by Judicial Watch.'' Many times the FOIA staff was not 
notified what documents had or had not been released, according to the 
affidavit. The employee further asserted that the General Counsel's 
procedure in this instance ``was and is inconsistent with the Commerce 
Department's written, prescribed rules for responding to FOIA 
requests.''
    <bullet> Can you supply the Committee with these rules?
    <bullet> Will you assure this Committee that they will be followed 
in all circumstances?
    Answer. The Department's published rules for responding to FOIA 
requests are attached. It would be my policy that the Department must 
follow its own rules when responding to FOIA requests.

Earmarking Corporate Waste

    Question 10. As you are probably aware, I believe that earmarking 
Federal funds is wrong because it gives special benefits to certain 
groups of individuals when others may be more in need or better 
qualified in the case of research or a similar, project. I strongly 
believe that the expenditure of Federal money should be made solely on 
the basis of national priorities determined in an open fashion based on 
a standard set of criteria that provide no undue advantage to any one 
entity or locality.
    <bullet> Will you pledge to work to ensure that Federal funds are 
distributed on a merit basis and not due to earmarks?
    If so, does that pledge include ``congressional priorities'' that 
are itemized in committee report language?
    If not, please state why.
    Answer. I support the funding of programs on the basis of merit and 
the award of grants in an open and transparent process based on 
objective criteria. I will work with the Congressional authorizing and 
the appropriating committees and subcommittees with jurisdiction over 
the Department of Commerce to achieve consensus on the nation's 
priorities and specific goals for Commerce Department grant programs, 
and to ensure that funding decisions are based on merit.
    Question 11. The 2001 budget for the National Marine Fisheries 
Service is approximately $519 million. Of that, $377 million was 
earmarked for special projects. While much of this funding may go to 
worthwhile fisheries programs, other equally important research and 
management programs will not be funded because a fair and equitable 
allocation process was circumvented. Mr. Evans, sustainable and 
competent management of our nation's fisheries is difficult. It is made 
more difficult unnecessarily when the routine, merit-based 
prioritization spending process is ignored.
    How do you plan to address this growing problem at the National 
Marine Fisheries Service?
    Answer. While I was not a party to the decisions surrounding the 
allocation of resources for National Marine Fisheries Service in fiscal 
year 2001, I understand that NMFS received a substantially increased 
budget. I hope that such increased funding can and will help the 
Service to address the host of fisheries and endangered species 
management issues facing the nation.
    As I expressed in response to the previous question, by working 
collaboratively with the Department of Commerce's Congressional 
authorizing and the appropriating committees, I trust we can achieve 
consensus on a fiscal year 2002 budget that will reflect the 
Department's natural resource stewardship priorities.

Electoral Reform

    Question 12. It was recently discovered during the post-election 
drama that the National Institute of Standards and Technology (NIST) 
previously published two reports criticizing the lack of uniform 
standards in our national voting machines--one in 1978 and the other in 
1988. Upon learning of these reports, I have been working closely with 
NIST to encourage the establishment of voluntary standards for voting 
machines used in Federal, State and local elections. What are your 
plans for such action at the Department of Commerce?
    Answer. The election and its aftermath rightly focused attention on 
the mechanics of voting. Historically, issues associated with voting 
standards have been addressed at the State level. I understand that 
efforts will be undertaken in both the House and the Senate to study 
voting standards matters during the first session of the 107th 
Congress. The ultimate role of the National Institute of Standards and 
Technology will depend largely on the overall decisions made by 
Congress on whether and how to address standardizing voting machines 
and processes. I would welcome the opportunity to deploy the expertise 
found within the National Institute of Standards and Technology to 
assist the States and Congress to achieve their goals in this area.

Trade

    Question 13. In the last Congress, President Clinton signed into 
law a provision to the Agricultural Appropriations bill that shifts 
antidumping duties from the general fund to the petitioning U.S. 
companies in antidumping cases. This legislation would have diverted 
almost one-half billion dollars from the general fund last year. 
Concerns have been raised that this provision will spur a number of 
frivolous antidumping and countervailing duty cases. In addition, a 
number of American trading allies, including the European Union and 
Japan, have objected to this legislation stating that it violates U.S. 
WTO obligations.
    <bullet> Would the Bush Administration support a repeal of this 
legislation?
    Answer. The provision in question raises a number of concerns, 
including whether it is appropriate on a permanent basis to earmark 
general revenues for narrow groups of beneficiaries, and whether U.S. 
exporters will be exposed to retaliatory trade action if the provision 
is found to be inconsistent with U.S. trade agreement obligations. At 
this time, however, President-elect Bush has not determined whether to 
propose a repeal of this legislation, or to support a repeal if such 
action is proposed in Congress. That determination must await a more 
thorough analysis of the consistency of the legislation with U.S. trade 
agreements, its purpose, and economic effects.
    Question 14, part 1. President-elect Bush faces a number of major 
trade issues left over from the Clinton Administration, including free 
trade negotiations with Chile and Singapore, the Free Trade Area of the 
Americas negotiations, re-starting the next round of World Trade 
Organization (WTO) negotiations, and getting Congressional approval for 
the U.S.-Vietnam bilateral agreement and the U.S.-Jordan free trade 
agreement. The President-elect has also indicated that he intends to 
expand this ambitious trade agenda.
    <bullet> What are the major trade objectives of the Bush 
Administration?
    Answer. Among the top priorities of the Bush Administration will be 
to secure fast-track trade negotiating authority that will allow the 
United States to speak with a unified voice in international trade 
negotiations, and to secure sound trade agreements based on that 
authority. The Bush Administration will seek to expand trade through a 
hemispheric free trade initiative in the Americas and through the 
launching of a new round of negotiations under the auspices of the 
World Trade Organization. The Bush Administration will continue to 
support the admission of the People's Republic of China and Taiwan to 
the World Trade Organization. Vigorous enforcement of our trade remedy 
laws will also be a priority.
    Question 14, part 2. Where do you foresee opportunities for 
embarking on future negotiations for free trade agreements?
    Answer. The Bush Administration will seek market-opening 
opportunities with any nation or group of nations committed to free 
market principles and trade liberalization on a reciprocal and fair 
basis. We will pursue market-opening opportunities for our services, 
agriculture, and manufacturing sectors. We will also seek elimination 
of tariffs on high tech goods and services and the removal of non-
tariff barriers that hinder the export and deployment of these products 
and services.
    Question 15. Ambassador Barshefsky, the current United States Trade 
Representative, has stated that the incoming Bush Administration may 
want to pursue a strategy of negotiating agreements and then sending 
them to Congress for ratification, instead of pursuing general ``fast-
track'' legislation. Many of our trading partners, however, are wary 
about negotiating trade agreements with the United States without 
existing ``fast track'' authority.
    <bullet> Will the Bush Administration introduce ``fast track'' 
legislation this year?
    <bullet> Does the Bush Administration view ``fast track'' 
legislation as a necessity for its international trade agenda?
    Answer. The Bush Administration will work in a bipartisan fashion 
to secure ``fast-track'' trade negotiating authority this year. This 
authority is necessary for the achievement of an international trade 
agenda that serves America's interests.
    Question 16, part 1. Last year, the Clinton Administration 
negotiated a free trade agreement with Jordan that includes 
controversial labor and environmental provisions. Specifically, this 
agreement includes provisions that would allow the United States to 
implement trade sanctions against Jordan if it does not effectively 
enforce Jordanian labor and environmental laws. The Clinton 
Administration has hailed this free trade agreement as a model for 
future free trade agreements, including current negotiations with 
Singapore and Chile.
    <bullet> Does the Bush Administration support the use of these 
provisions of the Jordan Free Trade Agreement as a model for future 
U.S. trade negotiations?
    Answer. The Bush Administration will carefully review all aspects 
of the Jordan Free Trade Agreement, including its provisions on labor 
and environmental matters. Generally, imposing sanctions is not the 
best way to achieve progress in these areas. Until the implications of 
these provisions are fully analyzed, however, it is premature to 
comment on their applicability to future trade agreements.
    Question 16, part 2. How does the Bush Administration intend to 
deal with pressure by environmental and labor groups to use trade 
agreements to address labor and environmental standards?
    Answer. The Bush Administration will consider all reasonable 
proposals to address international labor and environmental issues. In 
our view, the best way to address labor and environmental issues abroad 
is not through trade sanctions, but through international agreements. 
We must remain on guard against countries using labor and environmental 
standards as an excuse to raise protectionist barriers. Indeed, a 
primary goal of our trade agreements program is to raise living and 
working standards everywhere.
    Question 17, part 1. Recently, a number of concerns have been 
raised that existing United States antidumping laws do not give 
consuming industries an appropriate role in antidumping and 
countervailing duty investigations. For example, it has been alleged 
that United States steel-consuming companies are not given an adequate 
voice in antidumping and countervailing duty trade cases, despite the 
fact that the steel-consuming industries employ 40 Americans for every 
1 American employed by steel-producing companies. In addition, our 
foreign trading partners have initiated a number of WTO cases against 
American antidumping laws, and urged that the United States revise its 
antidumping and countervailing duty laws.
    <bullet> Could you describe how the Bush Administration will ensure 
objective and fair antidumping and countervailing duty investigations 
that will take full account of the prevailing economic conditions?
    Answer. Consideration of prevailing economic conditions in the 
context of unfair trade cases is generally the responsibility of the 
International Trade Commission, an independent agency. It will be the 
policy of the Bush Administration to administer the unfair trade laws 
fairly and impartially, taking into account prevailing economic 
conditions as required by applicable law.
    Question 17, part 2. Could you discuss how the Bush Administration 
will respond to foreign pressure and recent WTO rulings concerning 
American antidumping laws?
    Answer. Foreign pressure is irrelevant to the administration of the 
antidumping laws. The Bush Administration will administer these laws 
fairly, impartially, and in accordance with U.S. obligations under the 
WTO Agreements. We will vigorously defend foreign challenges to all 
U.S. laws, including our antidumping laws.
    Question 17, part 3. Do you foresee a need to revise the United 
States' antidumping and countervailing duty laws to ensure that they 
are compliant with our WTO obligations?
    Answer. We will review all applicable WTO rulings concerning U.S. 
antidumping and countervailing duty laws and, where necessary or 
appropriate, propose legislative or administrative changes to ensure 
that these laws operate in accordance with our WTO obligations. I do 
not have any such proposals to make at this time.
    Question 17, part 4. Consuming industries have expressed concerns 
that trade restrictions have been imposed without adequate attention to 
the needs and interests of consumers in this country. Could you please 
discuss ways to ensure that the Department can ensure that the 
antidumping investigatory process is inclusive of the views of all 
affected industries, while still ensuring the integrity of the process?
    Answer. The antidumping and other trade laws establish the 
framework for the conduct of investigations, for the participation of 
interested parties, and, where necessary, for the imposition of trade 
remedies. It is vital that these investigations be conducted fairly and 
impartially, and in accordance with law. To the extent trade laws 
permit interested parties and others to express views on the merits of 
pending cases and for the Department to take those views into account 
in the process, we will do so.
    Question 18. In June 1999, a coalition of domestic oil producers 
represented by Save Domestic Oil, Inc. filed antidumping and 
countervailing duty cases against crude oil from Iraq, Mexico, Saudi 
Arabia, and Venezuela. The Department of Commerce dismissed these 
petitions in August 1999. On September 19, 2000, Judge Thomas J. 
Aquilino, Jr. of the U.S. Court of International Trade instructed the 
Department to re-examine industry support for the petitions. The 
Department has appealed this case, and it is still in litigation. It 
has been alleged that Tom Brown, Inc. is a member of the Permian Basin 
Petroleum Association, which Save Domestic Oil lists as an association 
which has ``agreed to support Save Domestic Oil.''
    <bullet> As Secretary of Commerce, what actions do you intend to 
take to ensure that the Department of Commerce's investigation into 
crude oil dumping, and the resulting legislation, is handled in an 
unbiased, objective, and fair manner?
    Answer. If confirmed as Secretary, I will do what is necessary to 
ensure that the trade remedy laws are, in all cases, administered in an 
unbiased, objective, and fair manner. As for the specific case to which 
you refer, it is my understanding that there is no antidumping 
investigation of crude oil imports currently before the Department. 
Even if the proceeding involving Save Domestic Oil is remanded to the 
Department, I would not expect to be involved in it, because I will be 
generally disqualified from particular proceedings involving Tom Brown, 
Inc.

Export Controls

    Question 19. A major issue concerning the Department of Commerce 
concerns export controls. In the last Congress, a number of bills were 
introduced, including legislation intended to establish a new Export 
Administration Act. The June 1999 Department Inspector General's report 
stated that the ``intelligence community does not review all dual-use 
export applications or always conduct a comprehensive analysis of 
export license applications it does review.''
    <bullet> Could you describe your views of how the Department should 
interact with the Department of Defense and the State Department in the 
area of dual-use export applications?
    Answer. In the past, the Department of Commerce has been the lead 
decisionmaker among the involved Departments in licensing dual-use 
exports under the Export Administration Act and Export Administration 
Regulations, while the State Department has been the lead agency for 
licensing items on the Munitions List. I understand that the 
Departments of State and Defense participate regularly with the 
Commerce Department in reviews of dual use export issues, with an 
established mechanism for resolving the relatively few questions that 
are not decided by consensus at the working level. Close cooperation 
among these three agencies, with support from the intelligence 
community and other relevant agencies, is essential to an effective 
export control and licensing system. I thus anticipate that the 
Commerce Department will continue to lead a joint effort regarding dual 
use items, with enhanced integration of information from the 
intelligence community as necessary.
    Question 20, part 1. One major piece of legislation that was 
introduced in the last Congress to deal with recent export control 
problems was S. 1712, the Export Administration Act. I had a number of 
problems with this legislation. It ultimately did not pass, and instead 
a 1-year renewal of the old Export Administration Act was enacted. The 
1-year renewal expires on August 20, 2001.
    <bullet> Could you discuss your plans for establishing a regime to 
guide the process for approving or rejecting applications involving 
items on the Commerce Control List?
    Answer. We will follow the existing licensing framework, at least 
until further review suggests the need for significant change. Within 
that framework, my general approach will reflect the principles that 
have been outlined by President-elect Bush: wherever there is no 
national security interest at stake, exports will be permitted; but 
wherever national security is truly at stake, exports will be subject 
to appropriate levels of control, with serious penalties for 
violations. In addition, the Bush Administration will work to 
strengthen multilateral cooperation to control proliferation of the 
most critical technologies.
    President-elect Bush has proposed the establishment of the 
President's Technology Export Council (PTEC) to advise him on the 
implementation of the export control laws. The mission of PTEC will be 
to ensure that accurate and timely information is provided to the 
responsible export control officials concerning trends and issues 
involving advanced technology items.
    President-elect Bush also expressed support for renewal of the 
Export Administration Act along the lines proposed by Senators Gramm, 
Enzi, and others last year. Renewal of the EAA will be a high priority. 
We look forward to working with you, Senator Gramm, Senator Enzi and 
others to achieve a consensus on EAA reauthorization.
    Question 20, part 2. In a revised Export Administration Act, what 
would you like to see your role be vis-a-vis the Secretary of Defense 
in deciding what dual-use commodities should be placed on this list?
    Answer. In a revised Export Administration Act, I would expect to 
see my relationship with the Secretary of Defense, like that with the 
Secretary of State, to continue to be one of close consultation 
regarding the treatment of items on the Commerce Control List, but with 
final responsibility for licensing decisions and administration resting 
with the Commerce Department. As is currently the case, any 
disagreements would be resolved through an inter-agency process.
    Question 20, part 3. Do you support the use of a ``foreign 
availability or mass market status'' designation to delist items from a 
Commerce Control List?
    Answer. Yes, I support the discretionary use of a ``foreign 
availability or mass market status'' designation to delist items from 
the Commerce Control List.
    Question 21, part 1. On August 3, 2000, the Clinton Administration 
revised the policy for exporting computers. Concerns have been raised 
that this new policy allowed computers performing up to 28,000 million 
theoretical operations per second to be exported to ``Tier III'' 
countries, such as China, without government review. Experts who study 
nuclear proliferation have alleged that this new policy will benefit 
China's strategic nuclear warhead modernization and missile program.
    <bullet> Could you describe the new administration's policy with 
regard to the export of computers to countries considered national 
security or proliferation risks?
    Answer. On January 10, 2001, the current administration made 
further significant and wideranging changes to the high performance 
computer (BPC) export control policy of the United States. The incoming 
Bush Administration will closely examine these changes and the 
implementation of the revisions by the Department of Commerce.
    That review will be conducted in light of President-elect Bush's 
position that computer export controls should not be based on technical 
specifications that consistently lag behind technological developments, 
resulting in unilateral U.S. restrictions on widely available 
technologies. At the same time, under the President-elect's proposals, 
wherever security is truly at stake, exports will be subject to 
appropriate levels of control, with serious penalties for violations.
    Question 21, part 2. Are there actions you would recommend to 
ensure that the existing United States export control policy cannot be 
used by nations to aid their weapons development programs?
    Answer. Multilateral cooperation is essential to control the 
proliferation of the most critical technologies. I thus would seek to 
strengthen efforts to obtain multilateral solutions to proliferation 
issues. In addition, I support improving intelligence capabilities to 
detect violations of export controls, utilizing onsite inspections 
where appropriate, and imposing stringent penalties on those firms 
guilty of serious export violations.

Science, Technology and Space

    Question 22. The Advanced Technology Program administered by the 
National Institute of Standards and Technology (NIST) has been the 
subject of criticism and controversy over the last decade. Several 
members of this Committee, including myself, have voiced our concerns 
that the program has outlived its mission and no longer awards grants 
to ``high-risk'' research and development projects. Do you envision any 
substantial changes to the program under your leadership and the new 
administration?
    Answer. I have not made any decisions on the future of the Advanced 
Technology Program (ATP). I intend to review the status of ATP during 
the fiscal year 2002 budgetary process. My review will include a hard 
assessment of the continued utility of ATP and the extent to which it 
fills a need not capable of being satisfied at least as well by the 
private sector.
    Question 23. The National Weather Service completed its $4.5 
billion modernization program recently, closing an estimated 184 
weather offices throughout the country. Are you satisfied that the 
agency has achieved each of its original goals in completing this 
massive overhaul and reorganization?
    Answer. I understand the Weather Service modernization has 
significantly improved the accuracy and timeliness of weather forecasts 
and warnings. Such improvements were the primary reason for the 
modernization effort. In addition, the Weather Service promised to 
downsize its staff and to close over 160 weather offices across the 
country. I am advised that almost 150 of these offices have already 
been closed.
    It thus appears that the Weather Service has substantially achieved 
its immediate modernization goals. I nevertheless would review this 
program more closely, if confirmed, to ensure its goals have in fact 
been met, and whether new goals should be set.
    Question 24. The Technology Administration has the potential to be 
at the forefront of emerging technology issues that impact this 
nation's economy. Yet under the previous administrations, it failed to 
be more than a small think tank. Do you have any plans to reorganize 
and re-energize the Technology Administration?
    Answer. I have not developed any specific reorganization plan or 
new missions for the Technology Administration. No bureau within the 
Commerce Department, however, should lack energy or focus. I will work 
to ensure that the Technology Administration plays an important role in 
the Department of Commerce's mission to promote the growth of the U.S. 
economy.
    Question 25. Over the last year, this Committee has held hearings 
and meetings to discuss the fate of the National Technical Information 
Service (NTIS), which is no longer self-sufficient and in need of 
reorganization. Do you believe that NTIS should be transferred to the 
Library of Congress or the Government Printing Office? What are your 
plans for this valuable Federal resource?
    Answer. I understand that the National Technical Information 
Service is neither self-sufficient nor appears capable of becoming 
self-sufficient. With Federal technical information being ever more 
readily available through easily accessible sources, the future role of 
NTIS clearly must be rethought. I understand that the Library of 
Congress has not expressed any interest in taking over NTIS' functions. 
It is also unclear if this solution would actually save any of the 
taxpayers' money, because it may be more expensive to house NTIS 
functions at the Library of Congress than to simply fund NTIS.
    Currently, NTIS does not appear to require any appropriated funds 
in fiscal year 2002. I am hopeful that, working with interested Members 
of Congress, we might find a solution to NTIS' future before additional 
funding is required.
    Question 26. With the International Space Station moving along in 
its assembly process, commercial space opportunities for industry will 
grow. Do you have any plans for the Office of Space Commercialization 
to become more active in this area of industry involvement?
    Answer. The International Space Station will indeed offer 
significant opportunities for private sector pursuit of commercial 
ventures in space, but it is only one potential source for such 
ventures.
    The future commercial development of the Global Positioning System 
(GPS) and commercial remote sensing licensing and enforcement are other 
areas where the Commerce Department can promote space-related commerce. 
These areas deserve increased attention. I have no specific plans for 
broadening the work of the Office of Space Commercialization, but I 
would welcome working with the Committee and private sector 
participants to focus the work of the office most effectively.
    Question 27. Do you feel that that NOAA research budget and 
activities are sufficient to address its responsibilities on climate 
change research?
    Answer. Climate change research is clearly important, and I support 
continuing the Department's central role in this field. The National 
Oceanic and Atmospheric Administration's budget for Oceanic and 
Atmospheric Research (OAR) includes most of the Department's funding 
for climate change research. I have not had the opportunity to review, 
the budgetary needs of all of the Department of Commerce's programs. I 
will examine whether OAR's funding needs are sufficient in connection 
with the submission of the Bush Administration's fiscal year 2002 
budget.
    Question 28. As part of its work on climate change, do you have any 
plans of developing policies on a national emission trading program?
    Answer. President-elect Bush supports private sector trading of 
airborne emissions, including carbon dioxide. The Department of 
Commerce, however, neither regulates airborne emissions nor administers 
an emissions trading program. I expect that the Department of Commerce, 
through scientific research conducted by the National Oceanic and 
Atmospheric Administration, will contribute its technical expertise to 
any policies the administration may develop.
    Question 29. Last year, the Congress passed legislation on 
improving technology transfer between Federal laboratories and 
industry. The Technology Administration is required to issue a biannual 
report on the progress on technology transfer activities. Based on the 
previous experience in industry, do you have any ideas that you will 
pursue to further improve the technology transfer process?
    Answer. I understand that the Technology Transfer Commercialization 
Act of 2000 (P.L. 106-404) is the latest in a series of refinements to 
previous laws, including the Bayh-Dole and Stevenson-Wydler acts, that 
have helped stimulate technology transfer between federally funded 
research institutions and the private sector. P.L. 106-404 was signed 
into law on November 1, 2000. It is too early for me to determine if 
any additional changes are needed to improve the technology transfer 
process.
    Question 30. At the end of 1998, foreign companies owned 715 
facilities in the U.S. designated as R&D centers. What are your 
thoughts on this from a competitive standpoint?
    Answer. The eagerness of foreign companies to invest in research 
and development facilities in the United States says much about the 
advantages offered by our free market economy and our educational 
system. Overall, I believe the U.S. economy benefits tremendously from 
such investments. Foreign investment in the United States fosters new 
ideas, talent, innovation, and competition--all of which invigorate our 
economy, creating new jobs and opportunities for entrepreneurs.
    Question 32. The Commerce Department released a report on 
American's Access to Technology Tools this past October. The report 
indicates that while 11 percent of Internet users access the Internet 
using broadband technologies such as DSL or cable modem, far fewer 
rural persons have the ability to gain access to high speed networks.
    <bullet> How do you intend to increase rural America's access to 
broadband technology?
    Answer. The job of increasing rural America's access to broadband 
technology is one foremost for the private sector. The role of the 
Commerce Department and other agencies primarily will be to remove 
regulatory barriers and otherwise to foster a business and regulatory 
environment that will encourage rapid deployment of broadband access to 
all citizens. For example, the identification of suitable spectrum for 
Third Generation (3G) wireless technology, an initiative being lead by 
the NTIA, has great potential for ultimately giving our rural citizens 
a cost-effective option for digital services. There may be initiatives 
to be undertaken in conjunction with the FCC, such as finalization of 
the universal service proceeding, that should be encouraged as well.
    Question 33. The Commerce Department released a report on advanced 
telecommunications in rural America this past April. The report 
recommended revisions to the universal service program to ensure that 
advanced services are deployed to rural America.
    <bullet> Do you believe that in order to ensure that all Americans 
have access to broadband technology we must subsidize broadband 
deployment, or do you believe a competitive market-based approach can 
accomplish this task?
    Answer. I understand that a recent Commerce Department study 
reported a dramatic increase in Internet access by rural residents over 
a very short time period. This increase apparently occurred simply 
through the workings of a competitive market place. I would hope the 
same migration to broadband access will occur without any need for 
potentially expensive and market-distorting subsidies. As President-
elect Bush has stated, however, we must ensure that no person is left 
behind, especially the children of America. We need to look closely at 
the merits of expanding existing universal service programs to cover 
additional services, such as broadband deployment, but in light of the 
potential harm to existing universal service that might result.
    Question 34. As new wireless telecommunications services become 
available and spectrum becomes more scarce, increasing pressure is 
placed on the Federal Government to share or turn over more of the 
spectrum it uses to the private sector for commercial use.
    <bullet> What do you see as the proper role of NTIA, the manager of 
Federal spectrum, as commercial demands increase?
    Answer. The need for additional allocations of spectrum for 
commercial purposes is apparent. The Department of Commerce, through 
NTIA, should lead the effort to maximize the efficient use of spectrum 
by Federal users. NTIA can promote efficiency and use of modern 
technologies, which may significantly decrease the amount of spectrum 
now allocated for Federal Governmental use.
    The immediate challenge for NTIA will be to complete the process of 
identifying spectrum suitable for Third Generation (3G) wireless use 
according to the current schedule. Completion of this process will 
unleash great potential for providing new technologies that will help 
bring greater choices to all consumers, especially our rural citizens.
    Finally, NTIA can also help to promote consensus among the Federal 
spectrum users about the proper balance of interests to be made in 
setting spectrum policy and freeing spectrum for commercial use.
    Question 35. Several bills were introduced in the 106th Congress 
that were seeking to facilitate broadband deployment nationwide by 
leveling the regulatory playing field between cable companies and 
regional Bell operating companies. Specifically, these bills would 
deregulate Bell data services to more closely resemble the largely 
unregulated environment in which cable, modern deployment is taking 
place.
    <bullet> Do you believe regulatory parity and the anticipated 
increased competition for broadband subscribers will facilitate 
broadband deployment to rural areas?
    Answer. Yes, I am hopeful that a competitive, market-based approach 
will promote deployment of broadband services to rural areas. I also 
will look to remove regulatory barriers to fair competition in the 
marketplace.
    Question 36. Currently, NTIA's Public Telecommunications Facilities 
Program is being used to assist public broadcasters' transition to 
digital television, a project that can only be achieved with a $1 
billion price tag according to the administration and public 
broadcasters.
    <bullet> At this past July's CPB nomination hearing, Senator 
Rockefeller indicated that viewership was in the low single digits. 
Given the explosion in the new sources of data and content available to 
the public through the Internet and multichannel video marketplace, and 
the public's apparent lack of interest in the programming offered 
through public broadcasting, do you believe the taxpayers should be 
asked to give the public broadcasters $1 billion for DTV?
    Answer. I am not yet prepared to determine whether or to what 
extent public broadcasters should receive Federal funding for DTV 
conversion. In general, however, I believe that the cost and benefits 
of such funding must be given a hard look. The development of 
additional media outlets and opportunities is a factor to be 
considered. At a minimum, the specific funding request made by the 
public broadcasters must be examined fully to ensure that all potential 
savings and discounts are fully understood in order to protect 
taxpayers from paying more than necessary. Further, it is important to 
examine the public broadcasters' request in the context of how the 
entire industry is making the conversion to digital television.
    Question 37. In recognition of the potential of wireless Internet 
services, the Department of Commerce is presently working under an 
aggressive schedule to identify the additional spectrum that is 
necessary for the wireless mobile industry to undertake expansion and 
to provide services competitive with those available in other nations.
    <bullet> Will the Department adhere to the timeframes and 
responsibilities set forth in the Presidential Directive on 3G? What 
steps do you envision the Department and the NTIA will undertake to 
further the President Directive on 3G?
    Answer. The current timeframes provided in the Presidential 
Directive seem reasonable at this point, and most parties apparently 
agree that they can be met. I thus will expect the NTIA to meet the 
proposed schedule. I am presently unaware of any new steps that the 
Department and NTIA must undertake to meet the schedule, but I will 
make clear that meeting the schedule is a priority, and that NTIA 
should advise me of any anticipated difficulties that may delay the 
decision.
                               __________
        Response to Written Questions from Senator Max Cleland 
                           to Donald L. Evans
    Question 1. Both the incoming Bush Administration and the just-
sworn-in 107th Congress face unprecedented challenges requiring 
bipartisan communication and cooperation within and between the 
Executive and Legislative branches. What ideas do you have--in terms of 
staffing or outreach or policy proposals or some other approach--for 
addressing such challenges?
    Answer. I have always found that the surest way to achieving one's 
goals is to approach issues with an open mind, to obtain the facts, to 
listen to the ideas of others, and to conduct one's affairs with 
integrity. President-elect Bush shares these principles and they are 
not novel, but I see no reason why the approach that has served well in 
my prior business and public service endeavors will not work equally 
well to forge an effective governing partnership between the Congress 
and the Administration.
    Question 2. One of the concerns of this Committee regarding the 
Department of Commerce, under both Democratic and Republican 
Administrations, has been the political nature of the Department in 
general and the Department's trade missions in particular. Is this a 
concern to you as well? If so, how will you address these concerns?
    Answer. Whatever the record of the Commerce Department might have 
been in the past, my focus will be on ensuring that all of the agency's 
programs, including trade missions, are conducted in the public 
interest and to achieve the goals established by the Administration and 
Congress. With specific regard to trade missions, I will ensure that 
invitations to participate will be based on merit in accordance with 
clear objective criteria. I understand the current policy requires 
written criteria for selection of participants, prohibits consideration 
of political activities, and requires selection of participants by a 
majority of career Department personnel. I am committed to ensuring 
that this new approach works effectively. If confirmed, I will work 
with the Office of Inspector General, the General Accounting Office, 
and others to evaluate the effectiveness of the current approach and to 
make further improvements where necessary.
    Question 3. Just a week ago, the Census Bureau released the State-
by-State counts of population data that will be used to reapportion the 
U.S. House of Representatives. By Supreme Count decision, the use of 
sampling is prohibited in determining the number of congressional 
districts each State gets. However, the decision did not prohibit 
States from using sampling numbers for congressional and legislative 
redistricting.
    Do you favor or oppose the use of scientific sampling to correct 
the historic miscounts in the census? Please elaborate.
    Answer. By all accounts, the 2000 Decennial Census was the most 
successful census in history. Congress deserves credit for authorizing 
the substantial funds required to achieve such an apparently accurate 
count. The Census Bureau did an admirable job of deploying new 
resources, increasing awareness, educating people about the importance 
of the Census, and encouraging people to respond and to be counted. The 
Census Bureau has suggested that count is highly accurate.
    I have not pre-judged whether sampling techniques should be used to 
adjust the recently released State population data for redistricting or 
other purposes. Whether the 2000 headcount should be statistically 
adjusted is still being evaluated internally by the Census Bureau, and 
I do not possess the information upon which the Bureau's evaluation is 
being made. In general, I believe we must continue to seek the most 
accurate census counts for each of the many purposes for which the 
counts are used, within the bounds of scientific validity and 
applicable law.
    Question 4. Barring action by the new Administration, the Census 
Bureau may offer two sets of population numbers this spring--one raw 
and one adjusted by statistical sampling. Many scientific experts, 
including the National Academy of Sciences, believe that the second set 
of numbers, based on scientific sampling, is the more accurate, since 
it seeks to address the consistent undercount, chiefly of poor people 
and minority groups, that continues to plague the census. For example, 
according to the Census Bureau's own estimates, approximately 8 million 
Americans went uncounted in 1990.
    As Secretary of Commerce, would you support the release of the 
adjusted, more accurate census numbers this spring?
    Answer. As I noted in response to Question 1, the current Census 
Director has stated that the 2000 Decennial Census was the most 
successful ever, with the lowest undercount in history. The Census 
Bureau is still evaluating whether the 2000 headcount should be 
statistically adjusted. At this time, it is not known that adjusted 
census numbers would necessarily be more accurate.
    Also, it is my understanding that, while supportive of the concept 
of statistical adjustments, the National Academy Panel to Review the 
2000 Census has not expressed any opinion on whether the 2000 Census 
data should be adjusted by use of statistical sampling techniques, 
because neither the internal evaluation of the actual headcount, nor 
the statistical adjustment process, has been completed by the Census 
Bureau. I similarly have not prejudged the question whether the Census 
Bureau should attempt to adjust the population data through statistical 
sampling techniques.
    As I indicated in the January 4 hearing, it is not clear what 
responsibility now lies with the Secretary of Commerce concerning any 
decision by the Census Bureau to release adjusted numbers. I will only 
be able to form a personal judgment about the adjustment question after 
obtaining the facts and determining what my responsibilities will be.
    Question 5. On October 6, 2000, the Commerce Department under 
Secretary Mineta issued a rule which delegates to the Director of the 
Census Bureau the final authority to determine whether the census data 
will or will not be adjusted to correct for census miscounts. However, 
the rule also allows the Secretary of Commerce to revoke the delegation 
of authority given to the Director of the Census Bureau. Do you intend 
to overturn the rule and take the decisionmaking authority back under 
your jurisdiction so that you would have the final say?
    Answer. As section 195 of Title 13 of the U.S. Code confers the 
responsibility for making any adjustment decision specifically on the 
Secretary of Commerce, the timing and purpose of the November 6 rule, 
and its consistency with Congressional intent, certainly may be 
questioned. Nevertheless, I have made no decision concerning any 
changes to the rule, and as a practical matter, whether the rule should 
be revoked or amended is an issue that will be addressed, if at all, 
only after the Director of the Census Bureau has determined whether to 
issue. statistically adjusted data.
    Question 6. The census long form has been widely criticized as 
being too intrusive. To what extent do you support the American 
Community Survey as an eventual replacement for the census long form? 
Will you push for adequate funding for this initiative?
    Answer. I will support efforts to deal with problems associated 
with the census long form, including those relating to privacy and 
intrusiveness, and the overall drag on decennial census response rates. 
These concerns must be balanced with the data needs of Federal entities 
for effectively implementing particular Federal programs.
    I understand that the American Community Survey (ACS) will attempt 
both to simplify the decennial census form, and to collect more timely 
socio-economic data. I support these goals. This program is in its 
infancy, however. As the ACS survey is developed more fully, I look 
forward to learning more about how effective it will be as a 
replacement for the long form.
    As Secretary of Commerce, I would work to ensure that issues of 
privacy and intrusiveness are addressed with the ACS in a way that 
balances privacy concerns with the need for accurate and timely data. 
This undertaking would involve a thorough assessment of the actual 
questions on the ACS, including how new questions are added, and how 
outdated questions are removed. The ACS is a promising initiative. 
While I cannot presently commit to any particular funding level, I look 
forward to evaluating the program as it unfolds, and together with the 
Congress, determining how it should be shaped and funded.
    Question 7. The Commerce Department plays a key role in compiling 
statistics that measure the performance of our economy. What is your 
view regarding the proper role of the Department in assuring that we 
have the best possible measurements of economic activity? Does the 
Department have adequate funding for carrying out this responsibility?
    Answer. I agree that the Department of Commerce has a critical 
responsibility for collecting and analyzing the business, housing, and 
employment data that give us an accurate and timely picture of the 
status and performance of our economy. To date, I have not been made 
aware of any issues regarding adequate funding for carrying out this 
responsibility. As Secretary of Commerce, I would work to ensure that 
adequate resources are in place for the Department's traditional 
surveys that constitute the measures of our economy, as well as new 
surveys recently funded by Congress to measure important trends, such 
as electronic commerce, so that we maintain an accurate picture of a 
constantly changing economic landscape.
    Question 8. The Clinton Administration has advocated wider 
government involvement in promoting technology and research and 
development. What do you believe is the proper role, if any, of the 
Federal Government--and the Department of Commerce in particular--in 
fostering technology development leading to economic growth?
    Answer. The primary goal of the Department should be to foster a 
climate in which the development and deployment of technologies may 
thrive. It may play several roles in pursuing that mission. Those 
include, for example, promoting harmonization of domestic and 
international technical standards taking into account U.S. commercial 
interests; identifying regulatory impediments to technology development 
and means of alleviating them; and working to eliminate foreign 
barriers to technology exports and services dependent on them.
    Question 9. One of the difficult challenges faced by the Commerce 
Department is maintaining a proper balance between easing the 
regulations on the export of U.S. technology, such as encryption and 
space launch, and ensuring that national security is maintained at all 
times. What role do you believe the Commerce Department should play in 
promotion of these sensitive industries and how would you suggest that 
such a balance be struck? In particular, how can we be assured that the 
national security side of the balance will be appropriately maintained?
    How would you weigh the need to limit overseas sales for security 
reasons against commercial requirements of U.S. exporters, especially 
hi-tech producers, to reach foreign markets?
    Answer. As President-elect Bush has stated: ``There need not be any 
conflict between America's security interests abroad and our economic 
interests. We just need to be smart enough and flexible enough to 
distinguish between the technologies that guide enemy missiles and the 
technologies that animate children's games.'' Of course, these 
decisions are not always easy.
    Obtaining up-to-date, and accurate information, and applying 
seasoned judgment, are essential components of the deliberative 
process. Proposals in Congress to reauthorize the EAA have been 
consistent with President-elect Bush's approach.
    Maintaining the nation's security will be the guiding principle in 
any Commerce Department licensing decision. Against that paramount 
concern a variety of factors will be considered, including the 
effectiveness of controls, the proposed end use, the integrity of the 
end user, and alternative means of ensuring that national security 
concerns are satisfied.
    Question 10. What do you see as the principal role of the 
government in helping U.S. industries in the global market? Do you 
believe the government should step back and let U.S. industries fight 
on their own or do you believe the government should be actively 
involved in ensuring that these markets are kept open for U.S. 
businesses?
    Answer. The entrepreneurial spirit of the American people, not the 
government, creates wealth. But government can help create an 
environment in which the entrepreneurial spirit flourishes, an 
environment that promotes innovation, risk-taking and equal 
opportunity. In this regard, there is no question that the government 
should be actively involved in ensuring that foreign markets are kept 
open to U.S. business. Should I be confirmed as Secretary of Commerce, 
this will be one of my foremost goals.
    Question 11. How do you currently rate U.S. producers 
internationally? Do you believe they are competitive or not? If not, 
what do you believe the problems are and what do you suggest government 
can do about them?
    Answer. American producers are some of the most efficient and 
productive--and therefore the most competitive--in the world. The most 
important role for government is to foster the climate in which that 
competitiveness continually increases. This means maintaining a strong 
economy at home and reducing trade barriers abroad.
    Question 12. What role do you envision for the Commerce Department 
in the near future in terms of ecommerce? Are there some ``rules of the 
road'' that have applied to governmental involvement in commerce in 
generally, especially interstate commerce, for the last 100 years or so 
that we might want to consider as we look at e-commerce, or is this 
such a new item that we have better take a ``hands off'' approach until 
we see how things progress. What is your reaction to the dramatic 
growth of e-commerce?
    Answer. The Commerce Department should continue to lead efforts by 
the Federal Government to harmonize and minimize government regulation 
of e-commerce, both domestically and abroad; and to foster standards 
and technologies (e.g., acceptance of digital signatures, increased 
broadband access) that facilitate e-commerce.
    Question 13. In the last Congress this Committee struggled with the 
issues of Internet privacy and taxation. What role do you believe the 
Federal Government should play in guaranteeing privacy or working out 
some accommodation on Internet taxation?
    Answer. President-Elect Bush supports the current Internet tax 
moratorium. We also understand the serious concerns many parties have 
about its impact on the tax bases of State and localities, and its 
impact on local merchants and retailers. Although it must be respectful 
of the taxing authority of State and local governments and their 
revenue needs, the Federal Government has an important role to play in 
promoting harmonization of fiscal and regulatory measures affecting e-
commerce, in a manner that least intrudes on the growth and directions 
taken in that marketplace. E-commerce will thrive in an environment of 
certainty and minimal government intrusion. E-commerce also will falter 
ultimately if the public loses confidence in the security of electronic 
transactions.
    In some areas, like financial services, Congress has already taken 
action to promote consumer privacy. The privacy provisions of the 
Gramm-Leach-Bliley Financial Modernization Act offer important models 
by which these concerns may be addressed. In addition, it is vital that 
the Federal Government examine its practices and policies on protecting 
consumer privacy. In the past the Federal agencies apparently have 
violated their own privacy policies. This is unacceptable. Improving 
the privacy protections of the Federal Government should be a priority.
    Question 14. As you know, the Technology Opportunities within the 
Dept. of Commerce provides infrastructure and Internet access to 
disadvantaged communities. How do you view this program and would you 
like to see it expanded?
    Answer. The TOPs program has a very laudable mission. I have not 
yet formed a view, however, as to whether TOPs is accomplishing its 
mission in the most effective way, or whether it should be expanded.
    Question 15. In recent years, some critics have questioned the role 
of the National Weather Service in providing important weather 
information for free, even though there are private firms that seek to 
perform the same service. Supporters of the Weather Service's policy 
believe it provides a service to the public, including farmers, 
aviators, sailors and others whose lives and livelihood depend upon 
abundant and accurate forecasting. Do you support a continuation of 
this policy by the National Weather Service or do you see a need for 
change at this time? What role do you believe the National Weather 
Service should play for our country?
    Answer. The mission of the National Weather Service is to provide 
weather, hydrologic, and climate forecasts and warnings for the people 
of the United States and those that navigate our waters. The Weather 
Service should continue to play this vital role in the protection of 
lives and property.
    The Weather Service currently provides free access to the data and 
forecasts it generates. Such access both assists the public and enables 
private sector businesses to develop specialized forecasts for paying 
costumers. The Weather Service should continue to make this information 
readily available to the private sector for educational, commercial and 
other uses.
    Question 16. As you know, foreign trade zones provide an 
opportunity for industries to import their goods under certain very 
special circumstances at reduced tariff rates. This past summer the 
Savannah Foreign Trade Zone applied for an expansion of their Trade 
Zone which they believe could be a boon to their economic development. 
As Secretary of Commerce, your seat on the Foreign Trade Zone Board 
will have a great impact on the decisions made. What role do you 
believe the FTZ Board should play as we enter the 21st Century and an 
era of increasing global trade?
    Answer. Foreign trade zones play a positive role in the economic 
development of the United States by allowing U.S. companies to 
capitalize on market efficiencies at home and abroad. The FTZ Board 
should continue to assist local communities to establish FTZs adapted 
to the changing needs of commerce and capable of being administered 
with a minimum of red tape.
    Question 17. One of the first pieces of legislation that I authored 
and saw signed into law was a disaster mitigation pilot program to 
protect small businesses before a disaster strikes. I am sure you are 
well aware of the importance of a reliable and timely disaster warning 
system not only for the sake of the lives of millions of Americans but 
also for the sake of U.S. commerce. Do you see the issue of disaster 
warning as something you would like to champion or become actively 
involved in? If so, do you have any preliminary idea as to what 
additional steps the Federal Government should take in this field?
    Answer. The National Weather Service plays a critical role in 
disaster preparedness. I strongly support the Weather Service's role in 
proving disaster warnings.
    The Weather Service is only part of the disaster mitigation 
solution, however. While I do not have specific proposals to make at 
this time, I believe one should look at what further steps the Weather 
Service might take to work with State and local agencies and other 
Federal agencies, including the Federal Emergency Management 
Administration, Army Corps of Engineers, U.S. Geological Survey, U.S. 
Forest Service, Bureau of Land Management, Department of Defense, 
Department of Agriculture and the Environmental Protection Agency, to 
help ensure that disaster warnings are translated into actions that 
save lives and property.
                               __________
 Biographical and Financial Information on Donald L. Evans, Nominee to 
               be Secretary of the Department of Commerce

Biographical Information

    1. Name: (include any former names or nicknames used.)
          Donald Louis Evans (Don).
    2. Position to which nominated:
          Secretary of Commerce.
    3. Date of nomination:
          A date to be determined after January 20, 2001. President-
        elect Bush announced his intention to nominate me on December 
        20, 2000.
    4. Address: (List current place of residence and office addresses.)
          Residence: (Information not released to the public); Office: 
        508 West Wall, Suite 500, Midland, Texas 79701.
    5. Date and place of birth:
          Houston, Harris County, Texas.
    6. Marital status: (include maiden name of wife or husband's name.)
          Married--Susan Marinis (wife's maiden name)
    7. Names and ages of children: (Include stepchildren and children 
from pervious marriages.)
          Elizabeth S. Moon, 27; Jennifer S. Evans, 25; Donald L. 
        Evans, Jr., 11.
    8. Education: (List secondary and higher education institutions, 
dates attended, degree received and date degree granted.)

 
----------------------------------------------------------------------------------------------------------------
            Name of school                  Dates attended          Degree received        Date degree granted
----------------------------------------------------------------------------------------------------------------
University of Texas at Austin........      Sept. 1964-May 1969                     MSMB               June 1969.
University of Texas at Austin........      Feb. 1970-Dec. 1972                      MBA               Aug. 1973.
----------------------------------------------------------------------------------------------------------------

    9. Employment Record: (List all jobs held since college, including 
the title or description of job, name of employer, location of work, 
and dates of employment).

 
----------------------------------------------------------------------------------------------------------------
                Title                      Name of employer             Location           Dates of employment
----------------------------------------------------------------------------------------------------------------
Engineer.............................              Armco Steel              Houston, TX    June 1967-Sept. 1967.
Design Engineer......................        Monsanto Chemical            St. Louis, MO     June 1968-Aug. 1968.
Design Engineer......................       Cameron Iron Works              Houston, TX    June 1969-Sept. 1970.
Counselor............................             Camp Olympia              Houston, TX    June 1971-Sept. 1971.
Chairman of the Board, CEO...........          Tom Brown, Inc.              Midland, TX       Feb. 1975-Present.
----------------------------------------------------------------------------------------------------------------

    10. Government experience: (list any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.)
          University of Texas System Board of Regents.
    11. Business relationships: (List all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.)
          Tom Brown, Inc.--Chairman of the Board, Chief Executive 
        Officer, Director.
          TMBR/Sharp Drilling, Inc.--Director.
          American Oil & Gas, Inc.--Director.
          Caprock Electric Cooperative--Director.
          Security National Bank--Director.
          American Century Corporation--Director.
          Greenway Heritage Partners, L.P.--Limited Partner.
          Greenway-Glade Partners, L.P.--Limited Partner.
          Carlang Partners, L.P.--Limited Partner.
          Turnpike Waldrop Joint Venture--Joint Venturer.
    12. Memberships: (List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.)
          Board of Regents, University of Texas System--Chairman.
          The Bynum School Board of Governors.
          The Gladney Fund--Board Member.
          Memorial Hospital & Medical Center--Trustee.
          Midland Cerebral Palsy Center--Beefeaters Ball Chairman.
          Scleroderma Research Foundation--Board Member.
          United Way of Midland, Campaign Chair.
          United Way of Midland, President.
          Midland Chamber of Commerce.
          YMCA of Midland, Metropolitan Board.
          Young Life, Executive Committee.
          Young Presidents Organization.
          Omicon Delta Kappa Society Sigma.
          Alpha Epsilon Fraternity.
          Texas Cowboys.
    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
          None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.
          Bush For Governor, Inc.
          1995 Texas Inaugural Committee for Governor George W. Bush.
          Bush for President, Inc. (formerly Governor George W. Bush 
        Presidential Exploratory Committee, Inc.)
          Bush-Cheney 2000, Inc. (formerly Bush for President & General 
        Election Committee, Inc.)
          Bush-Cheney 2000 Compliance Committee, Inc. (formerly Bush 
        for President Compliance Committee, Inc.)
          Bush/Cheney Presidential Transaction Foundation, Inc.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

 
------------------------------------------------------------------------
                            Name                                Amount
------------------------------------------------------------------------
Wayne Allard for U.S. Senate Committee.....................     $ 200.00
Texans for Rudy Izzard.....................................       250.00
Kay Bailey Hutchison for Senate Committee..................     1,000.00
Cubin for Congress Inc.....................................     1,000.00
Texans for Lamar Smith.....................................       250.00
Texans for Lamar Smith.....................................       250.00
Kay Bailey Hutchison for Senate Committee..................     1,000.00
Texans for Lamar Smith.....................................       250.00
Texas Republican Congressional Committee AKA Victory `96...     1,000.00
Pink Elephant Committee....................................       200.00
Texans for Lamar Smith.....................................       250.00
Friends of Phil Gramm......................................     1,000.00
Texans for Henry Bonilla...................................       250.00
Cubin for Congress.........................................       250.00
Phil Gramm for President, Inc..............................    11,000.00
Dole for President Inc.....................................     1,000.00
McMillan for U.S. Senate...................................       250.00
Cubin for Congress.........................................       500.00
Kay Bailey Hutchison for Senate Committee..................     1,000.00
Gramm `96 Committee........................................       500.00
Texans for Lamar Smith.....................................       250.00
Texans for Henry Bonilla...................................       500.00
Bush-Quayle `92 Primary Committee Inc......................     1,000.00
Texas Republican Party.....................................     1,000.00
Craig Thomas for Congress Inc..............................       300.00
------------------------------------------------------------------------

    14. Honors and awards: (List all scholarships, fellowships, 
honorary degrees, honorary society memberships, military medals and any 
other special recognitions for outstanding service or achievements.)
          Distinguished Service Award and Boss of Year presented by 
        Midland Jaycees in 1980.
          Distinguished Alumni Award--University of Texas at Austin--
        School of Engineering--1997.
    15. Published writings: (List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.)
          None.
    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of on topics relevant to the position for which you have been 
nominated.
          None.
    17. Selection: (a) Do you know why you were chosen for this 
nomination by the President?
          Apparently because President-elect Bush believes my skills 
        and experience will enable me to lead the Commerce Department 
        successfully.
    (b) What do you believe in your background or employment experience 
affirmatively qualifies you for this particular appointment?
          In my professional career I have been employed as an engineer 
        and manager at several industrial companies, including as the 
        Chairman and Chief Executive Officer of a large energy concern 
        for the past 15 years; and I have chaired the University of 
        Texas System Board of Regents, an educational system comprised 
        of nine academic institutions and six health science centers, 
        having 79,000 employees serving 154,000 students. Besides the 
        skills thus acquired through years of managing large 
        enterprises, both commercial and governmental, I am thus well 
        acquainted both with the challenges and opportunities of 
        operating in global, highly competitive and regulated 
        industries--through good times and bad--and with the tremendous 
        benefits of educational and scientific endeavor.

B. Future Employment Relationships

    1. Will you sever all connections with your present employers, 
business firms, business associations or business organizations if you 
are confirmed by the Senate?
          Yes.
    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.
          No.
    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?
          No.
    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?
          No.
    5. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?
          Yes.

C. Potential Conflicts of Interest

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.
          None.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
          None.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 20 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated?
          None identified.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.
          None.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)
          I will comply fully with government ethics requirements. At 
        present, I am working with transition and government ethics 
        counsel to identify potential conflicts and to address 
        appropriately any that are identified. I also am working on 
        structuring my personal financial affairs to comply with 
        government ethics requirements. I have no trust or other 
        agreements relevant to these matters at this time. Upon taking 
        office, I will act upon the advice of the Department's ethics 
        counsel to avoid conflicts of interest that might arise, 
        recusing myself from matters as appropriate.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of the Government Ethics concerning 
potential conflicts of interest or any legal impediments to your 
serving in this position?
          Yes.

D. Legal Matters

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.
          No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details.
          No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details?
          (a) Security National Bank.--I served on the Board of 
        Directors of Security National Bank, a small, locally owned 
        national bank in Midland, Texas, from the date of its formation 
        in November 1981 until my resignation as a Director on February 
        15, 1985.
          The Comptroller of the Currency declared Security National 
        Bank insolvent on February 12, 1987 and the Federal Deposit 
        Insurance Corporation was appointed as receiver of the Bank.
          Charles and Jeannie McClure brought suit in the U.S. District 
        Court for the Western District of Texas, Midland-Odessa 
        Division, Civil Action No. M086CA86, styled Charles McClure and 
        Jeannie McClure v. Security National Bank of Midland, et al, 
        filed on May 19, 1986. The Plaintiffs alleged that officers of 
        the bank breached a commitment for interim financing and 
        refused to honor the bank's contract. The bank's directors, 
        including me, were joined Defendants in their official 
        capacities on the alleged grounds that they consented to and 
        agreed with the actions of the officers. At the conclusion of 
        the evidence in the trial, the other directors and I were 
        dismissed from the suit. Thereafter, the jury returned a 
        verdict for the Plaintiffs, and a judgment was entered on 
        December 13, 1986, in the amount of $2,250,000 (resulting from 
        the trebling of actual damage award of $750,000 in accordance 
        with 12 U.S.C. 1975). The McClures filed for bankruptcy (In Re: 
        Charles and Virginia McClure, Debtors, in Bankruptcy No. 7-85-
        0328 in the U.S. District Court for the Western District of 
        Texas, Midland-Odessa Division) and on February 12, 1987, the 
        FDIC was appointed Receiver of Security National Bank of 
        Midland. Thereafter, the $2,250,000 award was reduced to 
        $750,000 and filed as a claim with the FDIC, with approximately 
        $250,000 in dividend payments being made to the McClures.
          The McClures then filed another lawsuit against the 
        directors, including me. This action was Case No. 89CA029 in 
        the U. S. District Court for the Western District of Texas, 
        Midland-Odessa Division, styled Charles McClure and Virginia 
        McClure, Individually and on Behalf of Security National Bank 
        of Midland v. Fred M. Allison, III, Ray P. Moudy, Ernest 
        Angelo, Jr., James M. Blakemore, L. Decker Dawson, Arlen L. 
        Edgar, Donald L. Evans, Joseph A. Kloesel, C.R. Schwisow, 
        William C. Thomas, William Howle McCright, Jr., David Covey, 
        Individually, and the Federal Deposit Insurance Corporation, as 
        Receiver of Security National Bank. In general, the Plaintiffs 
        alleged (1) derivative claims on behalf of Security National 
        Bank and (2) claims, individually, for personal damages based 
        upon the same alleged wrongdoings which served as a basis for 
        the derivative claims. The Defendant Directors filed a motion 
        for a Rule 12 (b)(6) Dismissal for Failure to State a Claim or 
        for Summary Judgment on March 13, 1989. The motion was granted 
        on May 4, 1989. While the McClures filed a Notice of Appeal to 
        the U.S. Court of Appeals for the Fifth Circuit, the appeal was 
        dismissed on August 30, 1989 for want of prosecution for 
        failure of Appellants to file a brief.
          At no time was a claim against the Directors, including me, 
        made by the FDIC or any other governmental agency.
          B. American Century-Corporation, San Antonio, Texas. I was 
        elected to the Board of Directors of American Century 
        Corporation on August 24, 1984. Originally organized as a real 
        estate investment trust in 1969 in Jacksonville, Florida, under 
        the name ``American Century Mortgage Investors,'' the company 
        relocated its headquarters in San Antonio, Texas in 1982 and 
        was reincorporated as a Delaware corporation under the name 
        American Century Corporation. At the time I joined the Board of 
        Directors, American Century was a New York Stock Exchange-
        listed company engaged in commercial real estate investment and 
        mortgage lending through a wholly owned subsidiary, Commerce 
        Savings Association, a State-chartered thrift with 
        approximately $850,000,000 in assets. In addition, American 
        Century held a 20 percent stake in The First American Financial 
        Corporation in Santa Ana, California, the nation's second-
        largest title insurance company.
          With the sharp downturn in Texas economy and collapse of the 
        real estate market in the late 1980s, American Century 
        experienced significant operating losses, primarily through its 
        wholly owned subsidiary, Commerce Savings. I resigned as a 
        director of American Century in January 1989. Shortly 
        afterwards, Commerce Savings became insolvent and was placed in 
        conservatorship in March 1989. American Century also had 
        outstanding publicly traded subordinated debentures, which 
        defaulted at approximately the same time. In June 1989, 
        American Century filed a voluntary petition for reorganization 
        under Chapter 11 of the bankruptcy code. A plan of 
        reorganization of American Century was confirmed in June 1990, 
        under which American Century was merged with Tescorp, Inc. in 
        Austin, Texas, and American Century's bondholders received a 
        combination of publicly-traded Tescorp common stock, preferred 
        stock and warrants with a combined value that exceeded the par 
        amount of the debentures, resulting in no loss to its 
        creditors. Its shareholders also received a modest recovery in 
        the form of publicly-traded warrants. No claim was asserted 
        against American Century by Federal or State banking regulators 
        in such proceeding, and it is believed to be the only one of 
        the numerous holding companies of failed banks or thrifts in 
        the State to have been successfully reorganized. It should be 
        noted that 48 of the 50 largest thrifts and all but one of the 
        20 largest banks in the State either failed or were the subject 
        of supervised mergers with Federal assistance.
          In June 1992, the Resolution Trust Corporation filed a suit 
        against the former directors of Commerce Savings. The suit 
        alleged simple negligence on their part in connection with the 
        lending activities of the thrift (no allegations were made of 
        gross negligence, fraud or selfdealing). I was not named as a 
        defendant in the suit. The defendants denied any liability and 
        no discovery was taken in the suit, which was settled in late 
        1992 for an amount approximately the cost of defending the 
        suit.
          (c) Tom Brown, Inc., an oil and gas exploration and 
        production company, of which I have served as Chairman and CEO, 
        has been involved in various State and Federal administrative 
        agency proceedings in the normal course of its business.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?
          No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.
          None.

E. Relationship With Committee

    1. Will you ensure that your department/agency complies with 
deadlines set by congressional committees for information?
          Yes, within the bounds of my authority.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures?
          Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the Committee?
          Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress.
          The Commerce Department only has the authority Congress has 
        granted it. I thus will expect Department personnel to develop 
        rules only where necessary and only as consistent with 
        applicable law. I view Congress and the Department as having 
        complementary roles in ensuring that the Department's programs 
        are developed and implemented effectively and true to their 
        purpose. I thus expect on-going, two-way communications between 
        the Department and Congress will be an integral part of the way 
        we do business, including in our role as regulator.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives.
          Although the world in which we live and work is much 
        different than it was a century ago, the Department of 
        Commerce's mission remains fundamentally as it was stated by 
        Congress in 1903: to foster and to promote U.S. commerce, 
        international trade, manufacturing and fisheries. I believe the 
        Department's programs should reflect our nation's commitment to 
        the free enterprise system and be designed to bring the 
        benefits of that system to all Americans, whether through 
        opening new foreign markets to U.S. exports, or bringing the 
        great scientific research resources of the Department to bear 
        in establishing standards and policies to free our 
        entrepreneurs to concentrate on commercial competition rather 
        than regulatory barriers. The major programs of the Department 
        fit this mission. These include: (1) Managing the nation's 
        fisheries and coastal zones through NOAA; (2) providing first-
        class weather data gathering and analysis services, also 
        through NOAA; (3) supporting both U.S. commerce and national 
        security through oceanic mapping and research; (4) partnering 
        with the U.S. Trade Representative to negotiate and implement 
        effective trade agreements that promote and protect U.S. 
        interests; (5) promoting U.S. export opportunities, 
        particularly by assisting new and smaller exporters to take 
        advantage of world markets; (6) advising the President on 
        telecommunications and information technology policies, and 
        manage the allocation of the Federal radio spectrum; (7) 
        fostering technology standards development, research, and 
        policies that enable U.S. commerce to thrive; (8) supporting 
        economic development opportunities by minority and 
        disadvantaged businesses and communities; and (9) conducting 
        the U.S. census and related economic research. My major 
        operational objectives will include ensuring that all of these 
        programs, and other responsibilities assigned to the Department 
        by the President and Congress, are conducted efficiently, 
        honestly, and with the purpose of promoting a strong American 
        economy.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?
          Yes.

F. General Qualifications and Views

    1. How have your previous professional experience and education 
qualifies you for the position for which you have been nominated.
          The Secretary of Commerce must be an advocate of our free 
        enterprise system, champion and defender of the nation's 
        commercial interests, and steward of the nation's marine 
        environment. I have spent 25-plus years as an employee and 
        leader of a successful billion dollar company--through good 
        times and bad--operating in a global, highly competitive, and 
        regulated environment, as well as chairing the regents of a 
        major university system and leading other community activities. 
        These experiences all have provided me both with the skills to 
        manage a large and diverse organization, and a deep 
        understanding of the challenges and opportunities faced by 
        American businesses and workers, whatever their size, location, 
        or sector.
    2. Why do you wish to serve in the position for which you have been 
nominated?
          I share the goals and ideals of President-elect Bush and, 
        like him, wish to put my experience and abilities to public 
        service.
    3. What goals have you established for your first 2 years in this 
position, if confirmed?
    <bullet> Assemble a top-notch team of people.
    <bullet> Establish the Department's leadership and supporting roles 
in carrying out the President-elect's policies and programs, including 
vigorous enforcement of U.S. trade laws and monitoring of trade 
agreements, streamlining our export control mechanisms, promotion of 
U.S. trade opportunities and of hemispheric trade in particular, and 
fostering ecommerce.
    <bullet> Continued improvement in management of the Department, 
including implementation of up-to-date and efficient information 
systems.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills?
          I believe I possess the necessary experience and management 
        skills to carry out my responsibilities. My team of appointed 
        and career people will assist me to analyze and to make 
        decisions in subject areas where I currently lack detailed 
        expertise.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary.
          U.S. leadership of the global economy and our national 
        security derive from our nation's free enterprise system. I 
        share the President-elect's belief in restrained Federal powers 
        and reliance on State and local governments where appropriate 
        to promote the public welfare. Nonetheless, the Federal 
        Government has many important roles to play in our society, 
        ranging from defending the national security, to conducting 
        international trade relations, to resolving conflicting claims 
        to our common resources. The government generally shouldn't be 
        carrying on activities, especially commercial activities that 
        are better done in the private sector. The creation and 
        continued utility of government programs must be measured 
        against their purpose, effectiveness, and the alternatives.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives.
          See my answer to Question E5, which is in my own words.
    7. In reference to question No. 6, what forces are likely to result 
in changes in the mission of this agency over the coming 5 years.
          I do not see changes in the Department's basic mission 
        occurring, but how the Department carries out its mission will 
        certainly be affected by a variety of factors. These include: 
        Continued expansion of international trade and negotiation of 
        new trade agreements; technological advances that will continue 
        to drive new modes of conducting business and new products and 
        businesses; scientific discoveries and applications of the 
        fruits of those discoveries to our management of fisheries, the 
        marine environment, weather analysis, and other endeavors; etc.
    8. In further reference to question No. 6, what are the likely 
outside forces which may prevent the agency from accomplishing its 
mission? What do you believe to be the top three challenges facing the 
department/agency and why?
          I currently do not see any outside obstacles that will 
        prevent the Department from accomplishing its mission. That is 
        not to say there will not be challenges, but it is premature 
        for me to specify and rank those challenges.
    9. In further reference to question No. 6, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years?
          I have no opinion on this subject, as I have not yet reviewed 
        in detail what the Department sought to accomplish over the 
        past 6 years and why it did not achieve some of its goals, if 
        any. The Department clearly spent much effort over the past 3 
        years on improving its management systems, with positive 
        results, but with more to be done.
    10. Who are the stakeholders in the work of this agency?
          All of the American people.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 10.
          I will be a public servant, and my office must serve the 
        people. Those who are interested in the Department's programs 
        will find that I place great value on listening to a wide range 
        of views and obtaining the best technical advice available with 
        respect to the issues before me. We will strive to define and 
        to promote the public interest taking into account those views, 
        the law, and the President-elect's policies and initiatives. At 
        the end of the day, I will make the required decisions and be 
        accountable for them.
    12. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your agency has proper management and accounting controls?
          I will be accountable to the President and Congress for the 
        proper management of the Department. I will put into place a 
        team of well-qualified individuals, lead by the CFO, to manage 
        the Department properly. I will rely on the expertise of the 
        Inspector General, other agencies (such as the General 
        Accounting Office and OMB), and our outside auditors to ensure 
        the integrity and efficiency of our programs.
    (b) What experience do you have in managing a large organization?
          See answer to Question F1 above.
    13. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals.
          I believe that appointing capable people at the start, 
        delegating the necessary authority to them to do their jobs, 
        and holding them accountable for the results is the best way to 
        obtain the results you seek. Accountability depends on defining 
        goals and measuring progress toward those goals.
    (b) What steps could Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs?
          The remedy depends on the problem. Programs that do not have 
        a justifiable purpose may certainly be candidates for 
        elimination or restructuring. Worthwhile programs that simply 
        are not performing well should be reviewed from a management 
        improvement perspective.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed?
          To be an effective leader and communicator with Congress and 
        the public, and a candid, forthright advisor to the President.
    14. Please describe your philosophy of supervisor/employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you?
          As noted above, I have followed a philosophy of delegation of 
        responsibility and authority, with expectations of performance. 
        I also believe strongly in the value of communicating personal 
        interest in the success of each individual.
    15. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe.
          I expect to be in regular communication with Congress about 
        the range of issues that the Department will address under my 
        leadership. My past work involving Congress has been largely 
        limited to the Texas delegation.
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency.
          The IG has a valuable role to play as an objective reviewer 
        of the Department's programs. We will share the same objectives 
        of efficiency, effectiveness and integrity in the Department's 
        operations. I thus expect the IG to perform his duties 
        cooperatively, but independently.
    17. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress.
          See my response to Question E4.
    18. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
State your personal views.
          President-elect Bush supports reauthorization of the Export 
        Administration Act, on a permanent basis, as soon as possible. 
        It also appears to be important to resolve the funding status 
        of the Patent and Trademark Office.
    19. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please state why. If yes, please state 
what steps you intend to take and a timeframe for their implementation.
          Yes. Discretionary spending should be made on the basis of 
        objective criteria developed in a methodical process. I will 
        review the Department's programs to determine whether any 
        discretionary spending is not made according to such a process, 
        and determine what procedural changes are necessary in the 
        circumstances.

Affidavit

    Donald L. Evans, being duly sworn, hereby states that he has read 
and signed the foregoing Statement on Biographical and Financial 
Information and that the information provided therein is, to the best 
of his knowledge, current, accurate, and complete.
    Signature of Nominee--Donald L. Evans.
  

                                <all>

</pre></body></html>
